<html>
<title> - EVALUATING THE EFFECTIVENESS OF VA VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAMS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
   EVALUATING THE EFFECTIVENESS OF VA VOCATIONAL REHABILITATION AND 
                          EMPLOYMENT PROGRAMS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, JUNE 4, 2019

                               __________

                           Serial No. 116-14

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       




        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-764               WASHINGTON : 2021         
 
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   MARK TAKANO, California, Chairman

JULIA BROWNLEY, California           DAVID P. ROE, Tenessee, Ranking 
KATHLEEN M. RICE, New York               Member
CONOR LAMB, Pennsylvania, Vice-      GUS M. BILIRAKIS, Florida
    Chairman                         AUMUA AMATA COLEMAN RADEWAGEN, 
MIKE LEVIN, California                   American Samoa
MAX ROSE, New York                   MIKE BOST, Illinois
CHRIS PAPPAS, New Hampshire          NEAL P. DUNN, Florida
ELAINE G. LURIA, Virginia            JACK BERGMAN, Michigan
SUSIE LEE, Nevada                    JIM BANKS, Indiana
JOE CUNNINGHAM, South Carolina       ANDY BARR, Kentucky
GILBERT RAY CISNEROS, JR.,           DANIEL MEUSER, Pennsylvania
    California                       STEVE WATKINS, Kansas
COLLIN C. PETERSON, Minnesota        CHIP ROY, Texas
GREGORIO KILILI CAMACHO SABLAN,      W. GREGORY STEUBE, Florida
    Northern Mariana Islands
COLIN Z. ALLRED, Texas
LAUREN UNDERWOOD, Illinois
ANTHONY BRINDISI, New York
                 Ray Kelley, Democratic Staff Director
                 Jon Towers, Republican Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    MIKE LEVIN, California, Chairman

KATHLEEN M. RICE, New York           GUS M. BILIRAKIS, Florida, Ranking 
ANTHONY BRINDISI, New York               Member
CHRIS PAPPAS, New Hampshire          JACK BERGMAN, Michigan
ELAINE G. LURIA, Virginia            JIM BANKS, Indiana
SUSIE LEE, Nevada                    ANDY BARR, Kentucky
JOE CUNNINGHAM, South Carolina       DANIEL MEUSER, Pennsylvania

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

                            C O N T E N T S

                              ----------                              

                         Tuesday, June 4, 2019

                                                                   Page

Evaluating The Effectiveness Of VA Vocational Rehabilitation And 
  Employment Programs............................................     1

                           OPENING STATEMENTS

Honorable Mike Levin, Chairman...................................     1
Honorable David P. Roe, Ranking Member, Full Committee on 
  Veterans' Affairs..............................................     2
Honorable Gus M. Bilirakis, Ranking Member.......................     2

                               WITNESSES

Mr. William Streitberger, Director, Vocational Rehabilitation and 
  Employment Service, U.S. Department of Veterans Affairs........     4
    Prepared Statement...........................................    33

Mr. Patrick Murray, Deputy Director, National Legislative 
  Service, Veterans of Foreign Wars of the United States.........    17
    Prepared Statement...........................................    37

Mr. Derek Fronabarger, Director, Legislative Affairs, Wounded 
  Warrior Project................................................    18
    Prepared Statement...........................................    38

Mr. Jeremy Villanueva, Assistant National Legislative Director, 
  Disabled American Veterans.....................................    20
    Prepared Statement...........................................    47

Mr. Steven Henry, Associate Legislative Director, Paralyzed 
  Veterans of America............................................    22
    Prepared Statement...........................................    51

Ms. Tanya Ang, Vice President, Veterans Education Success........    23
    Prepared Statement...........................................    54



   EVALUATING THE EFFECTIVENESS OF VA VOCATIONAL REHABILITATION AND 
                          EMPLOYMENT PROGRAMS

                              ----------                              


                          Tuesday June 4, 2019

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:30 a.m., in 
Room 210, House Visitors Center, Hon. Mike Levin [Chairman of 
the Subcommittee] presiding.
    Present: Representatives Levin, Rice, Brindisi, Pappas, 
Lee, Cunningham, Bilirakis, and Meuser.
    Also Present: Representative Roe.

           OPENING STATEMENT OF MIKE LEVIN, CHAIRMAN

    Mr. Levin. Good morning. I call this hearing to order. I 
want to thank everyone for joining us today in the Veterans 
Affairs' Committee. Today's Economic Opportunity Subcommittee 
hearing will review the effectiveness of a critical long-
standing benefit for our Nation's veterans, the VA Vocational 
Rehabilitation and Employment Program, or VR&E.
    Earlier this year, we had a chance during our budget 
hearing to begin asking some very important questions about 
this program's direction, and today we have a great opportunity 
to dig a little deeper.
    VR&E provides job training and other employment-related 
services to veterans with service-connected disabilities. Today 
we will be reviewing the program's funding levels, staffing, 
administration, and the ongoing modernization of the 
administrative systems.
    I would like to speak on that last item, the matter of 
technology modernization. I wasn't here last Congress when this 
Committee learned about the major complications regarding case 
management modernization, but I know this Committee was very 
critical then about $12 million of lost investment and I would 
associate myself with many of the remarks the Committee made 
last year. We must be better stewards of taxpayer dollars and I 
hope it will be clear today that the VA has learned from what 
went wrong.
    Regarding the VR&E program myself, I am concerned about 
both the veteran-participation rate and the number of quality 
counselors the VA is employing. We should be encouraging more 
veterans who are eligible to sign up for VR&E, but first we 
must demonstrate strong results, which requires hiring more 
counselors. I am grateful that the VA is making progress to 
bring the counselor-to-student ratio closer to the 1-to-125 
ratio that we expect, but I am concerned that the program as a 
whole is suffering because that hasn't happened sooner.
    Second, I would like to see the VA more actively promote 
VR&E services to our veterans. I know many of our witnesses 
agree with me on this point. For eligible veterans, VR&E should 
be a part of the transition process from the military.
    Finally, we must do a better job at making sure our 
veterans are receiving the very best advice from the very best 
counselors. This Committee has heard from veterans who have 
either been misinformed by VR&E counselors and given advice 
that prioritized savings to the VA over the quality of 
education. While we must be prudent, we should not seek out 
savings at the expense of outcomes for our veterans.
    I look forward to hearing the testimony from our witnesses 
to determine where we should be focusing our efforts.
    Mr. Levin. On a different note, I would also like to 
welcome Angela Disbrow, who is shadowing me today. She is a 
preschool teacher from Oceanside, California, my district, and 
she is with the National Foster Care Initiative for National 
Foster Care Month. Angela, thank you for joining us.
    And I know my friend Dr. Roe, who is Ranking Member of the 
Full Veterans' Affairs Committee, is being shadowed as well.
    Dr. Roe?

    OPENING STATEMENT OF DAVID P. ROE, RANKING MEMBER, FULL 
                 COMMITTEE ON VETERANS' AFFAIRS

    Mr. Roe. Thank you, Mr. Chairman. I would like to introduce 
Alex Glendo. Alex is a freshman or just finished his freshman 
year at the University of Tennessee, and he is majoring in 
microbiology and wants to be an orthopedic surgeon. I told 
Alex; anybody can be a carpenter. But, anyway, that is his 
choice, and we are really glad--I participated in this program 
since its inception and these are some outstanding young people 
who have stepped up to represent a group of young people who 
are not very well represented, which are foster kids, and it is 
a huge problem in this country. And it is great to see from 
Oceanside, California a teacher, and a future orthopedic 
surgeon who may fix my bum right knee in the future, we are 
very glad to have them here and I want us to give them a warm 
welcome.
    [Applause.]
    Mr. Levin. Thank you, Dr. Roe. I certain share those 
sentiments and really appreciate the opportunity.
    And, with that, I now would like to recognize my friend 
Ranking Member Bilirakis for 5 minutes for his opening 
statement.

     OPENING STATEMENT OF GUS M. BILIRAKIS, RANKING MEMBER

    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it 
very much.
    Today, the Subcommittee will conduct an oversight hearing 
on the Vocational Rehabilitation and Employment Program at the 
Department of Veterans Affairs. VR&E is a program designed to 
assist our severely wounded and disabled veterans by helping 
them find meaningful employment or reach maximum independent 
living, a most worthy cause.
    Every day, VR&E's masters-level counselors work diligently 
with veterans in the program to help create a rehabilitation 
plan that fits their needs and to execute that plan. Counselors 
are also a constant source of support for the participant as 
they go through their individualized rehab program.
    I agree with those who have said that the VR&E Program 
should be the crown jewel of benefits provided through the 
Veterans Benefits Administration; it is certainly needed.
    This program is more than just a benefits program, it is 
also a vital first step for disabled veterans to become more 
financially independent, which is a win-win for veterans and of 
course taxpayers alike.
    For years, this Subcommittee has continued to sound the 
alarm about the rising caseloads for VR&E counselors and the 
impact these caseloads were having on employee morale and 
services provided to veterans. I am pleased to see that after 
many years of advocacy by this Subcommittee and Veterans 
Service Organizations, VA has begun the hard work of hiring 
additional counselors to reduce caseloads to the recommended 1-
to-125 counselor-to-veteran ratio. I want to thank the VBA for 
addressing this issue that was seemingly falling on deaf ears. 
Thanks so very much for doing this, it is so important.
    Another topic that seems to be falling on deaf ears is 
oversight of the new case management system for tracking VR&E 
participants. This system was supposed to finally eliminate 
participants paper-based file that can be lost or damaged and 
hamper counselor efficiency. After years of waiting, in 2015 
VR&E was given the green light to begin working with VA 
information technology staff on a replacement for the current 
case management program that has been in place since 1997. 
After almost 3 years of work, eight different IT bills, 
hundreds of man hours--sound familiar--and $12 million, VA 
ended up with a system that didn't work. Unacceptable. We have 
been told that none of the code created is salvageable and the 
only thing VA were able to get out of this work were lessons 
learned for the next time.
    This was the main topic of discussion at our oversight 
hearing on VR&E last year, which outlined problems--of course, 
the Chairman alluded to this--facing VA with the creation of 
this new case management system. I would be remiss if I didn't 
point out that this incident and the challenges faced with the 
Forever GI Bill implementation last fall highlight challenges 
VBA leaders have had in getting the attention of the VA Office 
of Information and Technology.
    To the best of my knowledge, no one associated with the 
development of either of these IT systems has been held 
accountable, not one. Unacceptable, again. It begs the question 
of how many veterans would have been better served if this $12 
million program had been better--the money had been better 
spent.
    So, Mr. Chairman, I am encouraged by the recent investments 
in VR&E programs, including the promise of a new case 
management system in fiscal year 2021. I am also encouraged by 
the suite of new tools that are being developed and have the 
potential to greatly assist VR&E counselors with their day-to-
day operations. However, it is Congress' job to ask the tough 
questions about these new systems and processes will improve 
the experience and outcomes for disabled veterans, not just 
make things easier for VA employees. Again, that is the key. I 
mean, we are trying to help our veterans, so we need more 
production to serve more veterans.
    Finally, I am looking forward to hearing from our witnesses 
how we can improve consistency of services and decisions being 
made by VR&E counselors across the country. I would also like 
to receive recommendations on how to improve and track long-
term outcomes of VR&E participants.
    Thank you, Mr. Chairman, for holding this hearing, and I 
look forward to hearing from all of our witnesses.
    Folks, it has got to work. I mean, this is a great program, 
it is a wonderful idea, great concept, but it has got to work 
for our veterans, and that is what we are going to make sure 
happens.
    So, thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Levin. Thank you, Ranking Member Bilirakis. I certainly 
share your sentiments.
    On our first panel we are joined by Mr. William 
Streitberger, Director of the Vocational Rehabilitation and 
Employment Service at the U.S. Department of Veterans Affairs. 
Thank you for joining us. As you know, you will have 5 minutes, 
but your full statement will be added to the record.
    Director Streitberger, you are now recognized to present 
your opening statement.

               STATEMENT OF WILLIAM STREITBERGER

    Mr. Streitberger. Good morning, Chairman Levin, Ranking 
Member Bilirakis, Ranking Member Roe, and distinguished Members 
of the Subcommittee. Thank you for the opportunity to appear 
before you today to discuss the VR&E Program. I am deeply 
honored and privileged to be here not only as the Executive 
Director, but as a proud recipient of this benefit and alumnus. 
I would not be in this role today had it not been for this 
tremendous contribution this program has had on my life.
    Today, I am excited to share with you VR&E's historic 
modernization efforts to provide participants with the benefits 
that they have earned in a manner that honors their service.
    The mission of VR&E is to assist servicemembers and 
veterans to prepare for, find, and maintain employment. 
Services fall under one of five tracks.
    Ninety six percent of our participants are in the long-term 
services track, which includes all payment of training and 
other required resources. Currently, more than 1,000 
professional VRCs deliver services through a network of over 
350 locations. VR&E works with the OFO to provide oversight, 
guidance, communication, and advice to the field.
    As Executive Director, I am heavily involved in all aspects 
of program operations. Since my arrival, I have instituted a 
comprehensive change-management strategy to support the 
modernization effort. I have traveled the country conducting 
town halls to share my vision and engage in discussions on key 
topics of concern and interest.
    There are currently three significant initiatives underway 
to strengthen program oversight and compliance.
    First, VACO will expand program oversight and compliance, 
and will expand that by threefold. Our new model will ensure 
compliance at each regional office every fiscal year.
    Second, our QA transformation will increase effectiveness 
and efficiency of the program, enabling us to get a more 
accurate picture of VR&E performance.
    And, third, technology will increase our capability to 
monitor operations, enforce compliance, drive higher quality, 
and eliminate inconsistencies.
    In fiscal year 2018, VR&E serviced nearly 16,000 veterans 
to achieve a positive outcome, an increase of 3 percent from 
fiscal year 2017.
    VR&E has implemented a new growth metric which measures the 
percentage of veterans entitled to our program that actually 
enter a plan of service. This will help us focus on increasing 
participants in the program. We continue to collaborate with 
DoD to off services to Active duty, Reserve, and National Guard 
through the IDES program, providing early intervention 
counseling and other services to wounded, ill, and injured 
servicemembers.
    Further, we support transitioning servicemembers, veterans, 
and family members through Chapter 36, including adjustment 
counseling, vocational testing, education, and career advice.
    We consistently hear veterans say that they do not remember 
hearing about VR&E in TAP. We will improve the TAP curriculum 
to add time based on the 2018 NDAA legislation. We continue to 
track veteran cohorts in the congressionally-mandated 20-year 
longitudinal study. Nearly 90 percent of participants reported 
moderate to high satisfaction with the program and around 90 
percent of veterans achieving rehabilitation from an employment 
plan were employed last year. Those who complete the program 
report positive economic outcomes, including higher employment 
rates, months worked, annual earnings, and home ownership, as 
compared to those who discontinued from the program.
    VR&E has embarked on a comprehensive modernization effort 
to improve customer service by streamlining processes and 
modernizing our systems. We have developed an overarching plan 
to include implementation of a new case management solution to 
replace our existing 20-year-old legacy platform. We will 
leverage software as a service, enabling us to grow with 
technology into the future. We anticipate acquisition before 
the end of fiscal year 2019. Concurrently, we will leverage 
existing people, process, and technology initiatives to more 
efficiently prepare us to transition into the new CMS. These 
include a virtual assistant for automated appointment 
scheduling and routine communication; tele-counseling to meet 
veterans on their terms, creating greater flexibility, 
convenience and access; e-invoicing to standardize and 
streamline invoice payment processing; paperless claims 
processing to move us fully into an electronic work 
environment; and centralized mail to streamline the receipt, 
processing, and filing of documents.
    As we implement these changes, VRCs will manage workload 
more efficiently and effectively, providing world-class 
counseling and employment services to participants.
    Mr. Chairman, VR&E continues to move in the direction of 
modernizing this very consequential benefit. With these 
initiatives, we will substantially improve and enhance the 
program. My vision is to continually challenge the status quo, 
to think differently to provide veterans with the benefits they 
have earned in a manner that honors their service, in the way 
they want to be served; that VR&E is a modern, 21st century 
facilitator of economic opportunity, the crown jewel in VBA's 
benefits portfolio.
    This concludes my statement, Mr. Chairman. I would be 
pleased to answer questions from you, the Ranking Members, and 
other Members of the Subcommittee.

    [The prepared statement of William Streitberger appears in 
the Appendix]

    Mr. Levin. Thank you, Director Streitberger. I now 
recognize myself for 5 minutes to begin our questioning. I want 
to thank you again for being here. I very much value VR&E and 
its contributions and your work. That being said, I think there 
are areas of concern that we want to address today. I know many 
of my colleagues will I am sure talk about the $12 million and 
some of the concerns around improved technology.
    I want to talk for a bit and ask you a few questions about 
counselors, which I think are really the backbone of VR&E, and, 
specifically, I would like to focus my time on staffing levels, 
quality, and caseloads for our counselors.
    Last year, the VA began the process of increasing its 
Vocational and Rehabilitation workforce to 1,113 counselors 
across the country. Director, what is the status of that effort 
and when do you expect to reach that goal?
    Mr. Streitberger. Thank you for your question, sir. We are 
very pleased to say today that we are currently moving our 1-
to-125 with the 169 new counselors. We have hired 166 of those 
counselors, the last remaining three are currently in the offer 
process and we hope to on-board them this month. We are also 
working very strategically to realign resources around the 
country to actually move cases based on our electronic 
capability to stations that have more capacity to serve 
veterans in ways that we can serve them that are not so 
intensely counselor or personal relationship-related, but to 
provide service to these veterans as timely as possible.
    As of today, we should have a 1-to-125 ratio across the 
Nation in each of our regional offices, the national average 
being 1-to-122.
    I appreciate that. As I mentioned during my opening 
statement, we have heard some quality concerns from some 
veterans. Can you, Director, explain how are counselors 
evaluated and how is the situation handled if a veteran is 
unhappy with their counselor?
    Mr. Streitberger. Yes, sir. Thank you for the question. So, 
three things. Our counselors are consistently monitored by 
their supervisory staff within each regional office on a 
monthly basis, they have a performance review. We also look at 
quality from a local and national perspective on a monthly 
basis to ensure the consistency of program delivery of our 
service to our veteran participants. And then we have robust 
training programs within VR&E Service where all of our 
counselors when they are on-boarded as new employees receive 
virtual training for preparatory courses to attend an in-
residence training session. And then after that training, 
following onto those services is an intensive mentoring program 
within the regional office, the station that they work at.
    Mr. Levin. But I guess, again--that is helpful, but if a 
veteran has a specific problem with a counselor, how is that 
specific problem addressed? How do you interact with that 
veteran and how do you follow up?
    Mr. Streitberger. Absolutely. So that can happen on many 
levels. We hope that that takes places at the local level and 
that the local level leadership are involved and engaged with 
that veteran regarding their concern.
    I believe that many of those instances are solved at that 
level, but we do receive inquiries from veterans through our 
partners that will be here on the panel today, we work very 
closely to resolve those issues. And I personally receive 
inquiries from veterans whom I have met with as I have traveled 
the country and gone to their conferences and have invited them 
to speak with me personally. I can tell you, in those instances 
we are very quick to resolve those issues to ensure no 
interruptions to the veteran's services.
    Mr. Levin. I appreciate that. I also recognize a big aspect 
of program quality is out of counselors' control. There are 
many skilled counselors in the field who are simply 
overburdened with too many cases, too much administrative work. 
I am hopeful that both issues will be eased by VA's hiring and 
information technology efforts. However, I think we have to 
continually assess capacity to ensure veterans are well served.
    Director, how does the VA monitor counselor caseloads and 
do these measures include time spent on direct counseling 
versus paperwork?
    Mr. Streitberger. Thank you for that great question, sir. 
So one of the major emphases on driving modernization in our 
processes has been from our research that says over 60 percent 
of a counselor's day is actually spent in administrative tasks 
and functions. So driving the modernization effort through e-
invoicing, through our virtual assistant, ultimately the case 
management solution, is to alleviate the amount of time a 
counselor spends in actually updating our systems, processing 
invoices, reconciling credit cards and the like, and turning 
that capacity back toward direct-facing veteran services, which 
is what they have been hired to do, which is what they are 
trained to do, and which is what I absolutely want them doing 
each and every day.
    Mr. Levin. Thank you, Director. I appreciate your answers.
    I now would like to recognize Ranking Member Bilirakis for 
5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it.
    Sir, how many actual veterans, how many veterans are 
counselors? I know you have to have a master's degree and what 
have you, but how many currently are veterans?
    Mr. Streitberger. Sir, I would have to take that question 
for the record. I know that roughly 55 percent of our workforce 
are veterans; in terms of veteran counselors, I don't have that 
exact figure.
    Mr. Bilirakis. Yeah, if you could get that information, 
because I think it is important.
    Mr. Streitberger. Absolutely, I would be happy to do that.
    Mr. Bilirakis. And then also the folks, the veterans that 
qualify for this program and need it--so, you know, 
qualification and need, because some veterans obviously get 
jobs on their own and do well, but what is the percentage of 
people that actually need the program that participate in the 
program?
    Mr. Streitberger. Sir, could I ask you to clarify that 
question? Percentage--
    Mr. Bilirakis. Yeah. So, for example--
    Mr. Streitberger [continued]. --of people who actually 
apply--
    Mr. Bilirakis [continued]. --if you qualify--
    Mr. Streitberger. Yes.
    Mr. Bilirakis [continued]. --okay? And you need the 
rehabilitation, the job, what have you--placement, what have 
you, vocational services, and you are aware of those services, 
you are aware it is available with VR&E, how many of those 
people actually use the service?
    Mr. Streitberger. So, roughly 110,000 veterans applied for 
our program last year and somewhere in the neighborhood of just 
under 25,000 actually entered a program of service. So, roughly 
25 percent of veterans applying will actually enter a plan of 
services.
    Mr. Bilirakis. So how can we get that more participation? 
Because I understand that participation has declined in the 
last 2 or 3 years. How can we do that? Is it more awareness? 
What would recommend?
    Mr. Streitberger. So there's several things that I would 
recommend. First of all, expanding the TAP briefing on VR&E 
will certainly help through the 2018 NDAA legislation; more 
outreach, which our outreach team is planning on doing more 
extensively through social media; through our engagement with 
our VSOs at their conferences; through our Vet Success on 
Campus counselors, who are at institutions of higher learning 
across the country.
    But we also need to be more clear about what our program is 
about. When we look at the discontinuances from our plans and 
our program, 66 percent of the folks who are actually 
discontinued from the program out of applicant status or out of 
entitlement status, and we believe that much of that has to do 
with maybe two things: one is, I didn't realize that this was 
an employment program and I just want to go to school and get a 
degree, and I don't want to have to participate in the 
employment services piece and get a job to participate in the 
program.
    The other is that the veteran does not want to after 
leaving service have to participate in a program that has such 
intensive oversight. And that is necessary for our folks to 
persist in the program and to achieve a positive outcome, but I 
have heard personally from my veteran roundtables as I have 
traveled across the country that, I got out of the service, I 
have been told what to do for many years, and then came to VR&E 
and I found out that I was going to have to be tracked every 
month, I was going to have to submit my grades, I was going to 
have to meet with a counselor, and I was just done with that.
    I met a nurse who is in a program of ours for a master's 
degree in Little Rock, Arkansas who told me, I was so glad to 
find my leader again after 2 years floundering in my own 
educational pursuits.
    So I think we have a lot of that we have yet to work with, 
and I am really eager to dig in with my team and find out how 
we can communicate this program differently so that veterans 
see the value in having the wraparound services that we 
provide.
    Mr. Bilirakis. Yes, I think it is so very important and I 
appreciate that. Anything we can do to help.
    I have one more question, Mr. Chairman.
    As I mentioned in my opening statement, I am pleased to 
hear about the new technology and game-changers that we are 
going to put in place for the VR&E counselors. What type of 
improvement should we expect to see in demonstrable outcome 
measures for VR&E participants once these new tools are 
implemented?
    Mr. Streitberger. Thank you--
    Mr. Bilirakis. You kind of touched on it--
    Mr. Streitberger. Yeah.
    Mr. Bilirakis [continued]. --but if you could elaborate, I 
appreciate it.
    Mr. Streitberger. Absolutely, and that is the exciting part 
about what we are doing. And our team back at headquarters, we 
are involved in this process every day looking at how are we 
going to measure the success of the implementation of this 
technology and, quite frankly, the bottom-line outcome is going 
to be how we are able to create more capacity for counselors to 
provide direct-facing services to veterans each and every day. 
How much more time can they spend sitting across from them from 
their desk and dealing with their issues, and providing them 
with guidance and concern or referrals to our partners in the 
community, VHA and other places, to ensure that everything that 
they need to be successful is taking place in their plan of 
service. When they are overworked and they are spending most of 
their time doing administrative tasks, they can't get to all of 
their veterans on their caseload to provide that service, and I 
am working each and every day tirelessly to ensure that these 
technology initiatives eliminate or eradicate to the greatest 
extent possible that burden that they have currently, that is 
not providing service to veterans in a manner that they deserve 
to be served.
    Mr. Bilirakis. Very good, sir. Mr. Streitberger, I think 
you have some great ideas and, again, we are looking forward to 
working with you on this, because it is so important.
    Thank you very much. I yield back, Mr. Chairman.
    Mr. Streitberger. Thank you, Ranking Member.
    Mr. Bilirakis. Thank you.
    Mr. Levin. Thank you, Mr. Ranking Member.
    I would now like to recognize Miss Rice for 5 minutes.
    Miss Rice. Thank you, Mr. Chairman.
    Sir, last year the VA assigned a Vet Success on Campus, a 
VSOC counselor to be shared between two schools in my district, 
Nassau and--well, one of them, Nassau is in my district, and 
then the Suffolk Community College, both are on Long Island. So 
I can't even tell you how much of a game-changer that was.
    I mean, the VSOC counselors are such a valuable resource 
for student veterans. They provide benefits assistance, port 
services during the transition from military to college life. 
And I, as well as everyone on this Committee, has advocated for 
an expansion of that program, because not every school and not 
every district, you know, schools in districts across the 
country are as lucky as we were to get a VSOC.
    So, does the VA plan to continue expanding the program, and 
what challenges are you currently facing in terms of the VA's 
ability to meet the demand for placements of VSOC counselors on 
additional college campuses?
    Mr. Streitberger. Thank you for your question, ma'am, and I 
could not agree with you more on the value of the VSOC program. 
We are extremely interested in expanding the program. I have 
asked for seven additional FTE in the 2020 budget, but that is 
clearly not enough. I have over 225 institutions of higher 
learning clamoring to get the same resources and I am currently 
only authorized 145 FTE to fill those slots.
    So the current representation at 70 installations around 
the country represents--I'm sorry, the 83 that I have 
authorized--so we would need to expand the authorization of FTE 
to fill any additional VSOC roles.
    Miss Rice. So can you just go back to something that you 
were talking about when you said 66 percent of the people who 
leave--who don't access the services anymore, there were two 
specific reasons you said for that?
    Mr. Streitberger. So, in our estimation from what we have 
heard from veterans, they have either come to an orientation 
after they have filed an application for our program and 
determined upon hearing about what VR&E is all about, which is 
employment and not education, education being a component of 
how they achieve a positive outcome to become suitably 
employed. And then the others not wanting to participate in a 
rigorous process of achieving their employment goal, which 
might be through education or training, where they have to 
engage on a very frequent basis with their counselor to provide 
oversight and other program services.
    Miss Rice. So when is the first time that a servicemember 
has contact with you and the program?
    Mr. Streitberger. So a servicemember can have contact with 
our program during 6 months prior to their discharge through 
our VSOC program on campus, they have engagements with us 
through our Integrated Disability Evaluation Assistance 
programs at our military installations when they are 
transitioning out as wounded, ill, or injured. And they 
typically come to us after they have separated from the 
service, have applied for the benefit, and attended an 
orientation program at one of our 56 regional offices or 142 
out-based offices.
    Miss Rice. So what percentage of your program attendees are 
you connecting with before they officially separate?
    Mr. Streitberger. That question I would have to take for 
the record.
    Miss Rice. Can you? Because it seems to me that that is--
there has to be earlier engagement in order to maximize the use 
of this program and helping the people we are intending to 
help.
    Mr. Streitberger. Yes, ma'am.
    Miss Rice. So, if you could get that information, that 
would be great.
    Mr. Streitberger. I would be happy to do so. Thank you.
    Miss Rice. Thank you very much.
    Mr. Streitberger. Yes, ma'am.
    Miss Rice. I yield back, Mr. Chairman.
    Mr. Levin. Thank you, Miss Rice.
    I now recognize the Ranking Member of our Veterans Affairs' 
Committee, Dr. Roe, for 5 minutes.
    Mr. Roe. Thank you, Mr. Chairman, and thank you for being 
here, and I just have a very few questions.
    But we have seven and a half million unfilled jobs in the 
country right now and the unemployment rate among our veteran 
population, which is great, is 1.7 percent. That is the lowest 
I remember. But the question I have, I guess, for you is, how 
large is your budget and how many people do you serve, and how 
do you measure success? In other words, a year after you finish 
the program, there is--I mean, every organization ought to have 
a metric or way to say we were successful in what we did, and 
about how much money do you invest per participant in this 
counseling process?
    Mr. Streitberger. Thank you for your question, sir. 
Regarding how much money we actually spent--
    Mr. Roe. What is your budget?
    Mr. Streitberger. So, in 2018, the budget for the 
Vocational Rehabilitation and Employment program was $1.3 
billion.
    Mr. Roe. Okay.
    Mr. Streitberger. About $250 million of that was for 
discretionary funding to administer the program. So in terms of 
understanding the success rate, first of all I would like to 
say, how we view success is by the outcome of what the veteran 
experience is.
    And I think of an Air Force veteran that recently was in 
our program for just about five and a half years who had 
struggled severely with alcoholism, joblessness, critical 
medical issues, and the suicide of his wife, who left him as a 
single father to his 13-year-old son, and how after 5.5 years 
in our program he is now today a Vocational Rehabilitation 
counselor working in the Department of Veterans Affairs. He is 
happily remarried, due to the adjustment counseling he received 
from our program, and he is a proud homeowner. That is how we 
determine success--
    Mr. Roe. But, I mean, at--not to interrupt you, but at the 
end of--and you have how many, you said 110,000 veterans in 
this--
    Mr. Streitberger. Right now, we have 115,000 in the 
program.
    Mr. Roe. Actively in the program?
    Mr. Streitberger. Yes, sir.
    Mr. Roe. So it would look to me like that maybe 12 months 
or 24 months or 36 months later, because the whole idea of this 
is to get into--you have been injured, but to get into a 
gainful employment that you can take care of your family and 
raise your family and earn an income, am I correct?
    Mr. Streitberger. That is correct, sir.
    Mr. Roe. Well, then we ought to know at 12 months, or 24 or 
36 or 5 years, are we actually doing that.
    Mr. Streitberger. Yes.
    Mr. Roe. And, if we are not, then we probably ought to 
change how we are doing it.
    Mr. Streitberger. Absolutely. And so participants in our 
program spend roughly 5 to 6 years on average in the program, 
and so we track them through that, the continuum of the 
program, to ensure that they are on track and that they are 
meeting their particular individual program requirements. 
Determining success for each individual veteran is based on 
what in fact their program of service is. Is it a short-term 
training program and can we measure that over a period of 6 
months, or is it an education program that includes a 4-year 
degree program and then subsequent employment services post-
education to get them ready for--
    Mr. Roe. Well, again, not to quote Yogi Berra, but if you 
don't know where you are going, you might end up someplace 
else. And so you ought to have some goals out there and have we 
met those metrics for these veterans--
    Mr. Streitberger. Yes.
    Mr. Roe [continued]. --and been successful. And I think, if 
we are, that is great, because I am huge supporter of Voc 
Rehab; we used it in Tennessee on the non-military side very 
successfully to retrain people and get them back in the 
workforce. And that is the whole purpose of this--
    Mr. Streitberger. Absolutely.
    Mr. Roe [continued]. --question is, are we doing it?
    Mr. Streitberger. We are, sir. And last year, as I 
mentioned, we rehabilitated almost 16,000 veterans in our 
program of service, which is 3 percent higher over the last 
year, and we are on track to do even more this year, which is 
the ultimate determination of success of our program is to 
achieve our stated program targets and outcomes.
    Mr. Roe. And are your numbers--and I missed that--are your 
numbers stable or going up or down? And, again, not knowing 
about the program, obviously veterans can't access it.
    Mr. Streitberger. Yes, so great question, sir. Our program 
outcomes have increased over the last 3 years, but our 
participation has dropped over the last 3 years. So, as I 
mentioned in my opening statement, we have instituted a growth 
metric, a driving metrics that will point attention to our 
counselors to actually work with veterans to ensure that they 
get into a program of service, so we can have more folks in the 
program, we can sustain them throughout the program, and can 
continue to have high levels of positive outcomes, which means 
veterans are being employed and supporting their livelihood.
    Mr. Roe. And my time is very short and I think you have 
answered this, but of the 15,000 or so veterans that 
discontinued, I think you have mentioned just you may have 
gotten in there and this program just is not right for me, is 
that--
    Mr. Streitberger. Correct, sir.
    Mr. Roe. Okay. I yield back, Mr. Chairman. Thank you.
    Mr. Levin. Thanks, Dr. Roe.
    I would now like to recognize Congressman Pappas for 5 
minutes.
    Mr. Pappas. Thank you, Mr. Chair. Thank you to the Ranking 
Member and Mr. Streitberger, great to be with you here today.
    Just following up, I wanted to draw on the VA's annual 
performance plan and looking at the class achievement rates 
contained within there. I noticed that 2018 had an achievement 
rate of 72 percent, it fell to 65 percent in 2018. There is a 
strategic target of 68 percent, as you well know. I am 
wondering if you could comment on those numbers and what needs 
to be done to get them moving back in the right direction.
    Mr. Streitberger. Thank you for that great question. I am 
very excited to tell the Subcommittee that within VR&E Service, 
we are working on new measures, what I call measuring the 
middle. We do a really good job, sir, up front of measuring how 
timeliness of getting folks into a program of service, their 
average days to entitlement, their average days to evaluation 
and planning, and then on the back end of the program we 
measure the timeliness of their employment services and then 
their positive outcome targets. But within the middle where 
they persist in our program, we evaluate a lot of the 
activities that our hardworking counselors do each and every 
day to support a veteran in persisting in the program and our 
qualitative measures.
    We are currently working right now with a work group of 
folks from around the country to look at what do we do in the 
middle. What are those key activities that we must do and 
elevate them to our performance standard level, so that all 
employees are focused on ensuring that the activities they do 
each and every day are ensuring a veteran is successful in 
persisting in their program, so that they can have the positive 
outcome that they worked for from the beginning.
    Mr. Pappas. Can you talk about the timeliness in the 
entitlement determination of a 45-day goal, how that target was 
arrived at and whether you are going to look to narrow that in 
the future?
    Mr. Streitberger. So, with our new technology 
implementation, we are going to look very closely at how that 
shrinks our timeliness in many of these processes. One of the 
things that is really, really important to point out about 
finding someone entitled or developing a plan of service is 
that each plan of service or each program of service is very 
uniquely individual to every individual veteran. And it is at 
that point in many instances we turn this process back to the 
veteran to go out and do vocational exploration with our DOL 
Vets partners, to do research on the types of schools and 
programs that they want to do. Is that education program viable 
and will it ultimately result in employment in the geographical 
location where they reside.
    So the timeliness there, we would like to of course 
streamline that to the extent that we possibly can, but it is 
also there to ensure that the veteran has explored his or her 
option to be successful in the program more fully.
    Mr. Pappas. Would you be able to set a specific target in 
the future or is that TBD?
    Mr. Streitberger. Well, I think it is TBD, and I will tell 
you why. We are in a change-management process where we have 
unfrozen all of what we have been doing in the past and we are 
implementing new people, process, and technology initiatives, 
and as we lay them down between now and the first quarter of 
fiscal year 2021, there is going to be a lot of change and our 
ability to firmly understand what it is we are going to be able 
to measure and the benefits that we will achieve, through the 
modernization and technology initiatives in particular, I think 
is TBD until we have re-freeze and we have our new process in 
place, and that we can evaluate what is happening in across the 
value stream of the program of services that we provide to our 
veterans.
    Mr. Pappas. One final area, I wanted to address the Video 
Connect Program.
    Mr. Streitberger. Yes.
    Mr. Pappas. I think there is a lot of potential here, 
especially for veterans from a district like mine who are in 
rural communities not adjacent to services, this will allow 
them to virtually see tele-counselors. And I am wondering, you 
know, how equipped our veterans are to take advantage of that 
technology if there are some on the other side of the digital 
divide that won't be able to because of lack of access to 
broadband or, you know, the technology they need?
    Mr. Streitberger. Absolutely, great question. One of the 
things that I am most excited about, we have heard from our 
employees in the field about their veteran participants who 
have not been able to come in to have a face-to-face 
appointment for various reasons: distance, time, money, their 
inability to get off work, and the like. So this new platform 
that we actually launched in November of last year is one of 
the easiest platforms to run this technology on. It is the 
Cisco Pexip platform, it can be used on any mobile device that 
has a camera and a microphone. So on your iPad, your iPod, your 
whatever, you can access this technology and have an 
appointment with your counselor.
    Mr. Pappas. Thank you. I yield back.
    Mr. Levin. Thank you, Mr. Pappas.
    I now recognize Mr. Meuser for 5 minutes.
    Mr. Meuser. Thank you, Mr. Chairman.
    Thank you, Director. Looking at your background and 
extensive experience, I can see clearly you are virtually the 
ideal person to be the Director of this important area for the 
Department of Veterans Affairs and for our veterans.
    So I want to run through some questions for you relatively 
quickly. The system, the integrated system that we are getting 
into now, are you confident in its development and the progress 
being made?
    Mr. Streitberger. Thank you for your question, sir, and 
thank you for your confidence in me, I greatly appreciate that. 
I would say with 100-percent certainty that I am confident that 
we will deploy the system in the first quarter of 2021, and we 
will implement components of it as they become available after 
its acquisition at the end of this fiscal year.
    And I will tell you that there has never been more 
oversight of this implementation than we currently have right 
now. I am partnering with executives at my level in our Office 
of Business Process Integration, with OI&T, and we have 
actually added another layer in that process to ensure that we 
successfully acquire and start deploying this system. Our 
acquisitions executive leadership is in our scrums on a weekly 
basis to ensure that we are hitting all the targets of our 
critical path among our integrated master schedule. There is no 
daylight between our engagement among those entities to ensure 
that we are successful for the veterans that deserve to be 
served in this manner.
    Mr. Meuser. In my district, Pennsylvania's 9th, do you know 
of the employers, for instance, that often hire veterans, or is 
that on a list and do you do your best to match those to the 
veterans that live in the district?
    Mr. Streitberger. Absolutely, sir. I personally could not 
name them one by one--
    Mr. Meuser. Sure.
    Mr. Streitberger [continued]. --but our employment 
coordinators who are employed in our regional offices and many 
of our vocational/rehabilitation counselors who deal heavily 
with our employers, we have those employers listed; we are 
engaging with them out in the community, we are offering them 
the additional services that we provide to employers to help 
ensure that veterans are successful when they do become 
employed with those employers.
    Mr. Meuser. Now, they don't operate out of the VAs?
    Mr. Streitberger. They do.
    Mr. Meuser. They do?
    Mr. Streitberger. Yes, they do.
    Mr. Meuser. Okay, thank you. Do you then--if the skills 
aren't there, do you match them up as well with various 
vocational schools and career development centers?
    Mr. Streitberger. Absolutely. So we assess their program 
needs, we determine their interests, aptitudes, and ability. We 
write a plan of services for them based on their career goals 
and then we match them with institutions of higher learning, 
training facilities. We also do on-the-job training programs, 
non-paid work experience programs, and the like, to ensure that 
they are fully prepared to be successful when they engage with 
that employer.
    Mr. Meuser. Okay. How about transportation when that 
becomes an issue where a veteran who has the ability to do the 
job just can't get to the job?
    Mr. Streitberger. So those are pressing issues that we are 
working very closely on with our DOL-Vets partnership. We have 
a work group where we are working with community partners 
through our SVPs and other community partnerships to help us 
bridge the gap where transportation is concerned. It is a 
pressing issue that some of our program participants face and 
we know we have to address that issue.
    Mr. Meuser. How is the volunteer initiative going for that; 
is it strong, is it good? Are there people stepping up to 
volunteer to provide transportation for veterans?
    Mr. Streitberger. So specific to the VR&E Program, we don't 
participate in that; however, if we do have veterans who are 
coming to our co-located regional offices with a hospital, they 
often participate in transportation services such as the DAV 
transportation services and the like. But where it concerns 
them actually getting to work from their home and the like, we 
are still dealing with those issues.
    Mr. Meuser. Yes, that is difficult. There are, I think, 
about 16 states that offer tax credits to employers for hiring 
veterans; do those tax credits create the right incentive, in 
your opinion?
    Mr. Streitberger. I do. And our employment coordinators or 
Vocational Rehabilitation counselors work with the employers to 
inform them. We also have special employer incentives to 
incentivize employers to hire veterans that may need some more 
on-the-job experience and training before they are somewhat at 
the journeyman or woman level, so we work with them to inform 
them about those as well.
    In addition to any workplace adjustments or reasonable 
accommodations the veteran might need to be successful in that 
role, we can support those requests with the employers as well.
    Mr. Meuser. Any data you have on that that perhaps we could 
share within Pennsylvania or any state, for that matter, would 
be helpful.
    Mr. Streitberger. It would be my pleasure.
    Mr. Meuser. And thank you for your service.
    Mr. Streitberger. Thank you, sir.
    Mr. Meuser. Chairman, I yield back.
    Mr. Levin. Thank you, Mr. Meuser.
    I now recognize Mr. Cunningham for 5 minutes.
    Mr. Cunningham. I just want to thank you for your service 
and being here today, and I would yield back to the chair and 
save my time for the second panel. Thank you so much.
    Mr. Streitberger. Thank you, sir, I appreciate it.
    Mr. Levin. Thank you, Mr. Cunningham.
    And thank you, Director Streitberger. I really appreciate 
your testimony and your work on behalf of veterans, and your 
service yourself.
    Mr. Streitberger. Thank you.
    Mr. Levin. Thank you so much for all that you do.
    I would now like to call on our second panel to join us.
    [Pause.]
    Mr. Levin. All right. Everybody ready? Record time.
    Appearing before us today is Mr. Patrick Murray, Deputy 
Director for the National Legislative Service at the Veterans 
of Foreign Wars of the United States. Good to see you again. 
Also here is Mr. Derek Fronabarger, who serves as Director of 
Legislative Affairs for the Wounded Warrior Project. Thanks for 
being here.
    We also have Mr. Jeremy Villanueva, Assistant National 
Legislative Director for the Disabled American Veterans.
    Next is Mr. Steven Henry, the Associate Legislative 
Director for the Paralyzed Veterans of America.
    Finally, Ms. Tanya Ang, Vice President at Veterans 
Education Success.
    Good to see you all again and thanks for joining us.
    As you know, you will have 5 minutes, but your full 
statement will be added to the record.
    With that, Mr. Murray, you are now recognized to present 
your opening statement.

                  STATEMENT OF PATRICK MURRAY

    Mr. Murray. Chairman Levin, Ranking Member Bilirakis, and 
Members of the Subcommittee, on behalf of the men and women of 
the Veterans of Foreign Wars of the United States and its 
Auxiliary, thank you for the opportunity to present our views 
on this important program today.
    Making sure that veterans remain employed in the right 
career for every one of them is incredibly important. One vital 
program that veterans can use is the Vocational Rehabilitation 
and Employment Program, commonly referred to as Voc Rehab. This 
program provides critical counseling and other adjunct services 
necessary to enable service-disabled veterans to overcome 
barriers as they prepare for, find, and maintain gainful 
employment.
    Ensuring veterans achieve meaningful and prosperous careers 
will improve their financial situations, thereby mitigating 
issues such as unemployment and homelessness.
    VA budget documents state the Voc Rehab program will meet 
and sustain the congressionally-mandated goal of 1-to-125 
client-to-counselor ratio. However, the latest data in VA's 
budget documents also shows that from 2016 to 2018 the number 
of Voc Rehab participants dropped by more than 5 percent; there 
was also a caseload reduction of 8.4 percent. It would appear 
VA is able to meet the 1-to-125 goal by having fewer veterans 
to serve.
    VA has hired additional counselors, which brought them 
within the mandated ratio, and have made substantial 
technological upgrades within the past year. VA also predicts 
that some of these changes will increase participation within 
the Voc Rehab program. If that does in fact happen and 
participation increases, then VA will again be outside the 1-
to-125 ratio.
    Now is the time to be planning for the additional resources 
or employees needed to accommodate the increase in clients and 
not wait until after the fact. This is an opportunity for VA to 
get ahead of an issue instead of waiting until the problem 
arises.
    While the number of counselors is something to always keep 
an eye on, the consistency of granting approval for this 
program is important as well. A consistent complaint from our 
members is they are unaware of the Voc Rehab program and just 
exactly who is eligible for it. A lot of disinformation is 
spread by word of mouth, and there is a lot of confusion about 
eligibility and exactly how the program can be used. Some 
veterans are approved to use Voc Rehab to attain advanced 
degrees and others are denied the same opportunity.
    The flexibility of Voc Rehab is one of the best parts of 
the program, but not having standardized usages leads to a lot 
of confusion and resentment towards VA. The VFW recommends a 
more robust discussion of the program within TAP classes, which 
we believe would help mitigate some of the confusion surround 
Voc Rehab and may guide more veterans to using it if there is 
better information presented earlier.
    While Voc Rehab is an employment program, it is commonly 
used for training on college campuses. The processing of Voc 
Rehab claims to universities is where we hear a lot of Voc 
Rehab problems. The processing of Chapter 31 claims takes 
months to go through the system, leaving some universities 
without payment for multiple semesters. In some cases, students 
are not allowed to further enroll until payments are made, and 
in other students are being counseled to voluntarily not enroll 
until the delayed payments are made.
    The delays in processing Voc Rehab payments are negatively 
affecting users of the program and this problem needs to be 
rectified immediately.
    Lastly, for years the VFW has called upon Congress to make 
Voc Rehab available for life. The 12-year limit on utilizing 
Voc Rehab is detrimental to older veterans who might be seeking 
to remain current with the evolving job market or a change in 
employment needs due to a service-connected disability received 
years ago.
    Recently, the forever part of the Forever GI Bill was 
implemented because we recognize the importance of education 
throughout veterans' lives, employment and training 
opportunities are just as important throughout all stages of 
their lives. We fully understand that counselors have the 
ability to waive the 12-year requirement and are told they 
often do so. However, the issue we have heard from our members 
isn't that they are being denied, but instead they aren't even 
applying because the requirements say they aren't eligible. 
Removing this barrier for applying would help veterans at any 
point in their lives to utilize this great program, and that is 
why we support H.R. 444 to remove this limit.
    Chairman Levin, Ranking Member Bilirakis, thank you again 
for the opportunity to testify today. This concludes my remarks 
and I am prepared to take any questions you may have.

    [The prepared statement of Patrick Murray appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Murray.
    Mr. Fronabarger, you are now recognized for 5 minutes.

                 STATEMENT OF DEREK FRONABARGER

    Mr. Fronabarger. Chairman Levin, Ranking Member Bilirakis, 
and distinguished Members of the Subcommittee on Economic 
Opportunity, Wounded Warrior Project is pleased to discuss our 
thoughts regarding the Veterans Affairs Vocational 
Rehabilitation and Employment program, and thank you for the 
opportunity to do so.
    Wounded Warrior Project has more than a dozen direct 
programs which we offer to wounded, ill, and injured 
servicemembers and veterans to help with their physical and 
mental challenges. One of these programs informing our 
perspective for this morning's hearing is known as Warriors to 
Work.
    This program assists WWP alumni in searching for jobs with 
an emphasis on helping at transition. We provide a range of 
services designed to meet veterans wherever they are in their 
job-seeking process. We assist Warriors with resume building, 
job placement, interview skills, and military occupational 
skill translation. While we can connect veterans to all of our 
programs no matter where they live, Warriors to Work is one of 
the only three programs where we have dedicated staff in each 
of our locations and field offices because it helps us meet 
such a critical need.
    We realize that education and vocational training are key 
tools for this population of Warriors and, in addition to the 
proof of our programming, we have specific data to illustrate 
that point. Perhaps most telling is that our annual survey 
reflects that 27 percent of our Warriors who reported currently 
enrolled in school reported doing so through the VR&E program.
    Over 95 percent of the more than 33,000 Warriors who 
responded to our survey stated that they have a disability 
rating over 20 percent and, regardless of disability rating, we 
know that a fulfilling career after service is critical to 
overall well-being.
    In this context, we are pleased with the current VR&E 
information technology improvements; specifically, the virtual 
assistance and tele-counseling changes. The virtual assistant 
will support scheduling appointments be it text message, email, 
and other platforms. We hope that this new tool will allow 
Vocational Rehabilitation counselors more time to work with the 
veteran and lower the rate of scheduling complications.
    Additionally, VR&E will be introducing a tele-counseling 
ability using VA's Video Connect Software.
    It can be difficult for veterans to drive to a local office 
due to time constraints or location. We hope using tele-
counseling will drastically reduce no-shows and allow 
counselors more time to interact with veterans.
    We have a few recommendations regarding the VR&E, which is 
outlined in more detail in our written testimony; however, we 
would like to highlight three issue areas for this Committee's 
consideration.
    First, WWP recommends aligning the Chapter 31 monthly 
living stipend with Chapter 33. We have seen instances where 
veterans would benefit more from VR&E services opt into Chapter 
33 Post-9/11 GI Bill solely for the monthly living allotment. 
By matching Chapter 31's living stipend to Chapter 33, veterans 
can choose the program that is best for their future and not 
what pays most in living stipend presently.
    Second, we recommend updating the program's name. The term 
``rehabilitation'' had a different meaning in 1918 when the 
program was adopted. At this time rehabilitation meant the 
restoration of someone into a useful place in society. Today, 
that same dictionary defines rehabilitation as rehabilitating 
someone who is a criminal or needs drug or alcohol assistance. 
Because of the connotations behind the word rehabilitation or 
rehab, Voc Rehab, we recommend VA look at alternative language 
that is more appropriate in today's world. It would be 
unfortunate if a veteran overlooked this program due to 
confusion regarding the term ``rehabilitation.''
    Lastly, we recommend that the VR&E self-employment track is 
revamped to promote more usage among the veteran population. 
The VR&E self-employment track is for veterans who have limited 
access to traditional employment and might need a flexible work 
environment to accommodate disabilities. It empowers veterans 
to enter into entrepreneurship roles.
    In this program, veterans receive assistance to start their 
own business, to include access to start-up funds. And, as you 
know, access to capital is considered one of the biggest 
barriers of entry for starting a small business.
    Wounded Warrior Project's mission not only assists veterans 
with disabilities, but allows them to live the most productive 
lives possible; many times, this means connecting them with 
meaningful employment.
    We would like to thank the Committee for their time today 
and look forward to any questions you may have regarding our 
oral or written testimony. Thank you.

    [The prepared statement of Derek Fronabarger appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Fronabarger.
    Mr. Villanueva, you are now recognized for 5 minutes.

                 STATEMENT OF JEREMY VILLANUEVA

    Mr. Villanueva. Chairman Levin, Ranking Member Bilirakis, 
and Members of the Subcommittee, thank you for inviting DAV to 
testify at this oversight hearing to discuss the program 
management, outcomes, effectiveness, and needs of VR&E.
    I testify before you today not just as an advocate for 
disabled veterans, but also as a successful outcome of VR&E. As 
a veteran of the United States Marine Corps, I had utilized my 
educational benefits under the Post-9/11 GI Bill and attained a 
bachelor's degree at Cal State Bakersfield in 2013. However, 
due in part to my disabilities, I could not obtain gainful 
employment. When I was hired in DAV in 2014, I was enrolled 
VR&E, provided a vocational plan that took into consideration 
my service-connected conditions, and assisted in my first 16 
months of employment as a National Service Officer, where I 
personally helped veterans with their VA claims, to include 
VR&E benefits.
    I completed NSO training in 2015 and began a series of 
promotions that led me to DAV's legislative staff. This is one 
example of how VR&E can help a veteran find the path to 
economic success that is best suited for the individual.
    VR&E reported in 2017 that approximately 90 percent of 
veterans who have achieved rehabilitation were employed in the 
past year and that the rate of home ownership was higher than 
the general population of the United States. Combine this with 
reported income that are at least $18,000 higher than for those 
who discontinued the program. VR&E is proving to be a valuable 
resource to America's disabled veteran, but there are some 
areas to improve upon and, despite data showing how beneficial 
VR&E can be, participation rates are down.
    VA's budget request shows that it will meet the 1-to-125 
counselor-to-veteran ratio; however, the latest data and the VA 
budget document shows that from 2016 to 2018 the number of VR&E 
participants fell by 5 percent and caseload declined by 8.4 
percent, which raised some questions. Is VR&E able to meet this 
goal by serving fewer veterans? Has VR&E instituted any new 
policies or practices that have deterred disabled veterans from 
seeking these services? And what action is VA taking to 
increase awareness of the availability and benefits of VR&E 
services?
    We are concerned that VA's hiring of new counselors to 
strengthen the program and increase services to disabled 
veterans is being negated by utilizing these counselors to do 
administrative tasks. While the request for 70 additional FTE 
is encouraging, the total FTE will only be raised by four. So 
where will the additional 70 counselors come from?
    VA noted in its assessment of the teleconferencing pilot 
program that VRCs who participated in the pilot had to assume 
duties that were generally completed by support staff, like the 
scheduling of appointments, monitoring of attendance, sending 
10-day letters, et cetera. Increasing counselors, but losing 
other essential staff, undercuts the benefit of achieving the 
125-to-1 ratio.
    Mr. Chairman, VR&E has improved the lives of thousands of 
disabled veterans, yet rural and economically disadvantaged 
veterans continue to have barriers to access these benefits. 
This past March, VR&E extended tele-counseling services 
nationwide to over 1,000 counselors. We are encouraged that 
VR&E has taken steps to reduce travel times to both veterans 
and VRCs alike, facilitate better case management, and help 
veterans to obtain their benefits more efficiently. It should 
be noted, though, that this program should remain an option for 
veterans and not standard protocol.
    In addition, VR&E suffers from a lack of resources and 
funding, an issue we believe to be due in part to a lack of 
leadership whose entire focus is on the economic opportunity 
programs. DAV is extremely pleased that the House passed a bill 
that would create a new fourth administration of the VA, but we 
need to work together to ensure that it makes it through the 
Senate during this Congress.
    In order to further strengthen VA's education, economic 
opportunities and transition programs, to include VR&E, DAV 
supports the creation of this fourth administration, which 
would be made up of the VBA programs currently under the 
purview of the Office of Economic Opportunity. This new 
administration would include critical programs such as VR&E, 
the GI Bill, and TAP for transition servicing veterans.
    For VR&E to fully reach its potential, it needs a 
leadership structure whose success rests solely on the success 
of the economic opportunity programs. The creation of this 
fourth administration would provide a greater accountability to 
Congress when problems such as low participation rates and the 
misallocation of resources come to light.
    In addition, by having an Under Secretary who is held 
accountable for the actions of VR&E and other EO programs, 
greater oversight can be accomplished, and results improved.
    Mr. Chairman, VR&E has shown time and time again that it is 
a useful resource for service-disabled veterans who are looking 
to utilize their given skills and talents to improve their 
quality of life. We look forward to working with this 
Subcommittee to make sure that VR&E continues to ease and 
expand access to this important resource for America's disabled 
veterans.
    This concludes my testimony, and, on behalf of DAV, I would 
be happy to answer any questions you or other Members of the 
Subcommittee may have.

    [The prepared statement of Jeremy Villanueva appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Villanueva.
    Mr. Henry, you are now recognized for 5 minutes.

                   STATEMENT OF STEVEN HENRY

    Mr. Henry. Good morning. Chairman Levin, Ranking Member 
Bilirakis, and distinguished Members of the Subcommittee, 
Paralyzed Veterans of America appreciates this opportunity to 
testify before the Subcommittee about the effectiveness of the 
Department of Veterans Affairs Vocational Rehabilitation and 
Employment programs, VR&E.
    We often hear how great and beneficial VR&E is, but the 
number of veterans eligible for the benefit compared to those 
who use it suggests there is a clear lack of communication and 
outreach to all eligible veterans. In fiscal year 2018, roughly 
4.75 million veterans had service-connected disabilities, but 
less than 3 percent of them utilized VR&E services.
    If you were to ask the average veteran about VA benefits, 
most could explain key elements of the disability compensation 
program, but very few know basic facts about VR&E.
    PVA believes that the effectiveness of VA's VR&E programs 
could be greatly improved through a number of changes that 
include greater outreach to veterans to raise awareness about 
the benefit, continued collaboration with outside agencies and 
programs, and increased follow-up time with participants.
    PVA has found that VR&E usage throughout our membership is 
rather low. We do not believe this is due to a lack of 
interest, but rather a lack of understanding of how the program 
works. One PVA member recently noted that he learned about the 
program only after he had returned to the workforce following 
his injury. Another was vaguely aware of the program, but 
thought he was no longer eligible, even though he had actually 
retained eligibility. These are common occurrences. And it is 
possible that the program is being overshadowed by the Forever 
GI Bill, which is widely advertised through a multitude of 
venues.
    A veteran's eligibility period for receiving services from 
VR&E is for 12 years beginning on either, one, the date of 
separation from military service or, two, the date the veteran 
receives a disability rating. To receive services, a veteran 
must need vocational rehabilitation to overcome employment 
barriers due to a service-connected disability. For veterans 
who have incurred a catastrophic disability, the 12-year 
delimiting date may not be sufficient to allow them to meet 
their vocational/rehabilitation goals.
    Furthermore, many of these veterans have disabilities that 
may continue to evolve and worsen over time, which may cause 
them to need additional assistance. Although a VR&E counselor 
may waive the 12-year limit for veterans with serious 
employment barriers, veterans living with the wounds, injuries, 
and illnesses associated with military service should have 
certainty that if they need assistance in staying in or 
returning to the workforce in the future that this program will 
be there to assist them.
    As a result of the barriers to employment faced by our 
members, PVA launched its own vocational rehabilitation and 
employment program in 2007, Paving Access for Veterans 
Employment, or PAVE. PAVE serves all veterans nationwide using 
a hybrid integrated approach to assist veterans and 
transitioning servicemembers who face significant barriers to 
employment, as well as their spouses and caregivers.
    Collaborating with public and private partners is an 
important way to ensure that veterans with disabilities will be 
able to receive the services and supports needed to allow them 
to build successful employment outcomes. VR&E must continue to 
do community outreach to find experienced, credible partners to 
meet gaps that will result in more veterans with disabilities 
being placed in competitive, integrated employment sooner.
    VR&E counselors typically follow veterans for 60 days once 
they are placed in a job. PVA believes that at the very least 
VR&E should study whether or not the current tracking standard 
of 60 days is sufficient follow-up time. For employees with 
probationary periods over 60 days, longer follow-up time may 
allow for problems that could lead to dismissal to be 
addressed, resulting in the veteran remaining employed. 
Regardless of the length of a probationary period, if any, it 
makes sense to increase the follow-up time to ensure that the 
veteran has the support, if needed, to ensure a successful 
transition to the workforce. That is why our PAVE counselors 
conduct ongoing follow-up for our veterans placed through our 
program. Long-term support may be needed to help a veteran with 
a catastrophic disability to not only successfully transition 
back to the workforce, but also to remain in the workforce.
    In conclusion, without the proper services and supports, 
veterans with catastrophic disabilities are in danger of 
falling out of the workforce permanently. Such a loss means 
decreased financial security and social opportunities. VA's 
VR&E program provides critical access to needed services and 
supports for veterans with service-connected disabilities. An 
investment in VR&E is an investment in helping veterans with 
disabilities return to work, and ensuring their long-time 
rehabilitation and success.
    PVA thanks the Subcommittee for the opportunity to express 
our views and I welcome any follow-up questions you may have.

    [The prepared statement of Steven Henry appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Henry.
    Finally, Ms. Ang, you are now recognized for 5 minutes.

                     STATEMENT OF TANYA ANG

    Ms. Ang. Chairman Levin, Ranking Member Bilirakis, and 
Members of the Subcommittee, thank you for the opportunity to 
testify today. At Veterans Education Success, we work to 
advance higher education success from military affiliated 
students. We believe holistic support and access to high 
quality post-secondary education and training for workforce 
development increases vocational opportunities for those who 
have served our country.
    VR&E is a crucial program that does just this, as it 
provides support for veterans and servicemembers with service-
connected disabilities through individualized plans that help 
them prepare for, obtain, and maintain suitable employment.
    I would like to bring to the Committee's attention the 
following three areas that deserve attention: technology; ways 
to improve the role of vocational rehabilitation counselors; 
and the need for parity.
    First, technology. The last time the case management system 
for VR&E was updated was in 1997. Complaints from school 
administrators around the country have revolved around the 
challenges certifying officials face with, what one 
administrator referred to as the black hole of certification.
    Student veterans have gone up to 6 months without receiving 
payments, causing undue financial hardship. When SCOs contact 
regional offices for updates, they are left with little 
information and much frustration, as they work to find ways to 
provide answers and support for their student veterans 
struggling to stay in school.
    VBA has proactively made this issue a priority over the 
last year, and based on recent conversations we have had with 
the VR&E office, we remain cautiously optimistic. With recent 
challenges VA OI&T has experienced with its last attempt to 
modernize the current system, and the recent rollout of 
sections of the Harry W. Colmery Act, we urge careful 
consideration and oversight from Congress.
    Second, veteran resource counselors. We applied VBA's 
concerted effort to reduce the number of clients per counselor, 
but question the current legislative mandate of 125 clients to 
one counselor. The program offers individualized support 
specific to the needs and challenges of each client. This type 
of support is necessary, yet the time it takes to provide such 
support and follow-up can be labor intensive. We encourage the 
Committee to further explore whether the current client to 
counselor ratio is realistic and consider decreasing the 
congressionally mandated ratio.
    We are also concerned about the recent news of James King, 
a VR&E counselor who pleaded guilty to bribery, fraud, and 
obstruction for demanding and receiving bribes from three for 
profit schools in exchange for steering veterans to those 
schools. While this example is clearly egregious in nature, it 
is important to ensure counselors are not in positions where 
significant conflicts of interest exist. It also highlights the 
power and influence current legislation gives to counselors.
    I have supported a number of students who were admitted 
into top tier universities, as well as low quality schools that 
did not produce the same vocational outcomes. Because the lower 
quality school accepted one credit of physical education from 
the student's joint services transcript, the counselor only 
approved the individual to choose the lower quality school 
because it would be more cost effective.
    Not all colleges are created equal. A veteran's career and 
earnings trajectory are significantly enhanced by attending a 
college that offers high quality and better respect in the--
high quality education and better respect in the job market. 
Consistency in guidelines and expectations for counselors is 
important, as is ongoing training and allowing veterans a more 
prominent voice in the institution or program of study they 
choose to pursue.
    We encourage the Committee to institute higher benchmark 
counselors should consider for a program's quality, including 
considering college outcome metrics, using readily available 
Federal data.
    In a Government Accountability Office report, veterans 
cited challenges with their counselor's inability to help them 
translate their military service into Federal civilian 
employment, and frustration that a counselor did not adequately 
describe the physical challenges of the job, given the 
veteran's service-connected disabilities.
    Veterans using the VR&E program are supported by their 
counselors to develop individualized plans following one of 
five tracks. The counselor is expected to be a subject matter 
expert on each of these issues. This seems unattainable for any 
one person. VES agrees with GAO's recommendation to conduct 
field research to identify and publish promising practices for 
field offices.
    Third, parity. With the passage of the Forever GI bill, 
Congress removed the 15 year delimiting date and included 
restoration of entitlement to students due to school closures. 
We agree with our colleagues who have called for the removal of 
the 12 year delimiting date. We also believe those using VR&E 
should have the same restoration of entitlement as their peers 
using the post-9/11 GI bill, should a school they are attending 
close.
    We also ask the Committee to consider moving the program to 
only one subsistence rate, instead of the two that currently 
exist. Doing so would reduce beau acracy, eliminate confusion, 
and create better parity for those using the program.
    Finally, we believe this program needs more transparency 
and that the GI comparison tool might be an optimal place to 
house information for both programs. I appreciate the 
Committee's continued commitment on this program and look 
forward to answering any further questions you might have.

    [The prepared statement of Tanya Ang appears in the 
Appendix]

    Mr. Levin. Thank you, Ms. Ang. I now recognize myself for 5 
minutes.
    Many of you have raised the need for greater promotion of 
VR&E to increase awareness among eligible veterans. Question 
for each of you, would you agree that these discussions about 
VR&E, the marketing effort, if you will, should take place 
during the transition assistance program or are there other 
venues that you would recommend as well? You can go in no--
    Mr. Murray. Sir, I think both. I think that more 
information any way we can get it out there. I think that in 
the TAP class, it is mentioned, but there is not a healthy 
discussion about it. As mentioned, the Forever GI Bill, you 
hear about it all over the place. You don't hear about it on 
social media the same way that Voc rehab is. So I think that 
there is multiple ways you can spread the information.
    Mr. Fronabarger. I would agree with my colleague. I think 
TAP is a great venue for that. Social media can also assist a 
lot in trying to promote this program, but also looking at it 
before TAP is even in the mind set. So allowing servicemembers 
to know what sort of programs are out there if they were to 
transition out is also an option.
    Mr. Levin. Do you want to just keep going down the line?
    Mr. Villanueva. Yes, Mr. Chairman. I would like to 
reemphasize what my colleagues have said and want to actually 
expand on it. Not only should it be mentioned at TAP for the 
outgoing, the transitioning the brand new veteran, but also you 
can really talk about expanding the VSOC program, the VSOCs as 
on the other end of that with these veterans who are at the 
schools and are not able to be around at least a vet center or 
an RO. Because currently--take California for example, Mr. 
Chairman. I will use that.
    Only three of the CSUs has a counselor at their school. And 
none of those are rural. All three of those CSUs: San Diego 
State, Cal State Long Beach, and Cal State Los Angeles, which 
all are within semi-reasonable access of a VARO. What about Cal 
State Bakersfield, or Fresno State? You know, these ones should 
have it as well so that they could tell the students who are 
already there, ``Hey, these are the benefits that are also 
available to you.''
    Mr. Henry. I also agree with my colleagues. Definitely, it 
needs to be more of a broader portion in TAP. But I would also 
say that as the 12 year delimiting date is removed, we need to 
do more outreach for the older veterans. And that includes a 
large portion of our membership. A lot of them are older.
    Definitely, as was mentioned before, social media, 
LinkedIn. LinkedIn is a huge platform and I see veterans 
looking for job assistance every single day. But also possibly 
going into SCI centers because we have--our membership, the 
veterans that have to spend time in the SCI centers, they could 
benefit greatly from some of the programs for Voc rehab.
    Ms. Ang. I agree with all of my colleagues here. I actually 
had highlighted VSOC counselors as well. I do think we need to 
increase that program, and they are a great way to disseminate 
some of the information to veterans who might be eligible for 
VR&E that are not even aware of it, and as well as the 
partnerships with other veterans and military groups who can 
help disseminate similar information.
    Mr. Levin. Thank you. Also, many of you alluded to the fact 
that it is not enough to help veterans just secure initial 
employment, but we really need to invest in ensuring they have 
lasting and fulfilling careers. Towards that end, I would like 
to learn more about the suggestions to improve follow up after 
veterans get placed in the job market. For no one in 
particular, anyone can weigh in on this, what information 
should be captured on follow up and how frequently should this 
occur?
    Mr. Fronabarger. So using our own program as a base, we 
actually follow up after employment at the 30, 60, 190, and 
365. We don't consider it a successful employment unless they 
stay in that job for one year. At that time, we ask how 
satisfied they are. We know that satisfaction is incredibly 
important in making sure that there is successful retention 
within that job. So those are some of the suggestions we would 
recommend if you were to look at that.
    Mr. Levin. Anyone else care to weigh in on that?
    Mr. Villanueva. Yes, so DAV does have a resolution where we 
look to support the extension of the period of employment 
services under voc rehab, because currently under Title 38, 
United States Code 3105, that allows veterans counseling and 
placement for the post-placement services for an additional 
period not to exceed 18 months, unless it was determined by the 
secretary that it would need more.
    Now, we all want to see the veteran succeed, and so we 
would--we do support the extension of those services, 
absolutely.
    Mr. Levin. Thank you. Out of time, but want to thank you 
all for your work and look forward to continuing to work with 
you to continue to improve this program for veterans. So with 
that, I'll turn it over to the Ranking Member, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. 
And this is for the panel. What is your view of the current 
management structure for VR&E? Do you believe that a regional 
review or some type of increased line authority focus is needed 
to improve performance? We can start from here, please.
    Mr. Murray. Thank you, sir. I think one of the things that 
we should focus on is a little bit better reporting and 
oversight based on the regional offices, having a national 1 to 
125 client to counselor ratio is great, but I think if it is 
reported at the local levels, that would help focus attention 
for management and oversight to see which regional offices were 
maybe above or below that.
    Mr. Bilirakis. Yes. Anyone else? Please.
    Mr. Fronabarger. I would agree with my colleague with VFW. 
Currently, we are seeing a lot of changes, especially in the IT 
section with the VR&E office. We would definitely recommend 
that from the leadership down to relay, we have heard some of 
the local counselors saying these are a lot of changes in a 
short amount of time. But with that, the reporting structure, 
we would recommend just streamline that information down a 
little bit easier.
    Mr. Bilirakis. Anyone else? Yes, sir.
    Mr. Villanueva. Yeah, I would like to reiterate what my 
colleague at VFW said. We do support changing the reporting of 
the ratio to reflect the VA regional offices, instead of a 
nationwide client to counselor ratio, and so that would help 
address the needs of specific offices and more directly help 
veterans.
    Mr. Bilirakis. Thank you. Yes, sir.
    Mr. Henry. I would say in regards to PVA, our usage with 
VR&E is just so low, we just have few members that use the 
program that I would--I will take the question for the record 
because I just don't think that we have enough experience with 
the program to really comment on management structure.
    Mr. Bilirakis. Thank you.
    Ms. Ang. I would say based off of the 2014 GAO report, and 
then having spoken with a number of school administrators who 
work with us on a daily basis, there does need to be more focus 
on the regional offices. There seems to be some offices that 
are doing exceptionally well and others that are really 
struggling. And to have some sort of accountability and 
transparency related to each office, I think would really help 
even VA, the proper, to hold them accountable and kind of 
address those issues at a more localized level.
    Mr. Bilirakis. Okay. Thank you. That was very helpful. Mr. 
Villanueva, I am sorry I messed up the name, Villanueva, sorry, 
and Mr. Murray, can you please discuss your concerns about the 
drop in participation in the VR&E program and how this drop may 
have led to the 1 per 125 veterans to counselor ratio being 
achieved? I know that you talked about it a little bit, but 
elaborate a little more. We will start with Mr. Villanueva, 
please. Thank you.
    Mr. Villanueva. Thank you, Mr. Ranking Member. And it is--
don't worry. It takes me some time to say it myself.
    Mr. Bilirakis. Well, I should know better. I apologize.
    Mr. Villanueva. It is fine. No, we do have some concerns 
and it was--I know it was brought up at a prior hearing where 
the deputy undersecretary, she noted her concerns of it as well 
because looking at the numbers that Department of Labor is 
putting out and that the Bureau of Labor Statistics is putting 
out, and how this same core group of veterans that utilizes 
VR&E, the Gulf War to our veterans that are roughly my age, 
late 20s, mid to late 30s, they are actually on the rise. 
However, the participation rates and the caseload is declining.
    Now, if the decline matches up with their now new 1 to 125 
ratio, that is going to be a concern. We want every veteran who 
can utilize this be able to utilize it and know about it. And 
we don't believe that this is a good trend, especially since 
all--according to the longitudinal studies in all the other 
cohorts, it was--the usership and caseload was dramatically on 
the rise and for it to now all of a sudden drop, not 
precipitously, but definitely have a drop, this is something 
that we would want Congress to take a look at.
    Mr. Bilirakis. Thank you. Mr. Murray, what do you attribute 
the decline to?
    Mr. Murray. So we are actually afraid that lack of 
attention for this program over years attributed to lack of 
outreach, lack of knowledge about it, lack of the counselors 
having the ability to properly manage their caseload. Not 
hiring the additional employees from the 2016 public law that 
passed for two years we think affected the program and the 
participation rates.
    As my colleague said, the rates were climbing steadily and 
to see them drop, there needs to be a better explanation for 
the lack of attention over the years and now hopefully that we 
are putting a spotlight on it, we are going to see those 
numbers start to rise again.
    Mr. Bilirakis. Good. One last question, Mr. Chairman, is 
that fine? I know I have a couple seconds here. Mr. Villanueva, 
what is your view of the tele-counseling program? I think this 
is important. Do you believe that this new tool can provide 
greater accessibility to VR&E services to disabled veterans? I 
know Mr. Pappas asked the question as well. I think it is a 
key, I mean, in tele-health, in tele-mental health as well, but 
in this particular case, how effective would it be?
    Mr. Villanueva. Thank you, Mr. Ranking Member, and I 
couldn't emphasize this more, that it is definitely a key, 
especially for reaching those who are in more rural 
communities. However, the pilot did show that it was 58 percent 
who chose not to do it, and the overriding reason, one of the 
two main reasons was because they wanted that face to face with 
their counselor. So we need to ensure that that is still 
maintained for the veteran as well.
    Mr. Bilirakis. Good point. Thank you very much. I yield 
back, Mr. Chairman.
    Mr. Levin. Thank you, Mr. Ranking Member. I would now like 
to recognize Ms. Rice for 5 minutes.
    Ms. Rice. Thank you, Mr. Chairman. Ms. Ang, is that how you 
say your--Ang?
    Ms. Ang. Ang.
    Ms. Rice. Ang. Ms. Ang, in terms of the ratio, I think it 
is something that every single one of you have spoken about, 
and I think we really have to drill down and figure out how we 
figure out--I know Mr. Villanueva, you had said that maybe 
the--the numbers should be driven by the region, and the need, 
and that as one of the driving factors. But Ms. Ang, you had 
said that the numbers should be closer to 85 I believe you 
said. So maybe you can talk--if you could talk about that, and 
then anyone else on the panel who has any thoughts about how 
we--because if you--if we can't get to the bottom of this, what 
is the point of the program?
    Ms. Ang. Correct. I based that off of the knowledge 
necessary to be able to support a military connected student as 
they are going through the VR&E program. And having worked as 
an academic advisor within a higher ed institution, 85 was 
typically the number that would provide the best results for 
client--for student to counselor ratio. Academic advisors often 
provide similar, more focused guidelines related to workforce. 
You know, what career are you going to pursue after you finish 
this degree. And so then what is the right degree for you to 
pursue that--or what is the right program of study for you to 
pursue that career trajectory.
    And based on that experience and in other experience with 
working--I oversaw another program that worked with severely 
injured at Walter Reed as they were in the process of recovery 
to get them into top tier schools using their Voc rehab. And we 
found that, again, the smaller client to counselor ratio 
provided a better return on investment and results.
    We believe VA has been conducting some research in that 
area and I think that their numbers were close to that. That 
hasn't been published yet. And so we felt that that was just an 
estimated guess, but probably a highly educated one.
    Ms. Rice. Well, I mean, you talk, and rightly so, about the 
nature of how time intensive the interaction between each 
individual client and a counselor is. And I guess depending on 
the specific needs of the client, but also I think we should 
put a huge emphasis on training of the counselors as well 
because the more trained and the better trained they are, the 
faster without sacrificing--we can be more efficient without 
sacrificing the quality of the care that is given to the 
clients.
    Mr. Villanueva, if you want to talk more about what you had 
mentioned before about the geographic specificity or in terms 
of the ratio.
    Mr. Villanueva. Thank you, ma'am. Yes, I would love to talk 
about that. And one, like my colleague said, addressed, some 
regional offices being more efficient than the others and some 
giving out the services. And also the need, rural areas, of 
course, are not getting the same. However, I want to stress 
when it comes to the nailing down a number, the 1 to 125 or the 
1 to 85. And as I stated in my oral testimony, and also in our 
written testimony, one of the things that we are worried about 
is that becoming a metric that the VR&E is shooting for over 
the services provided to the veteran.
    If they are hiring all of these counselors and then using 
them to replace service staff, doing administrative tasks, then 
we are losing out--these disabled veterans are losing out on 
services and time that the counselors should be used by giving 
it to them. So--
    Ms. Rice. That is a good point.
    Mr. Villanueva [continued]. --we would always want to be 
very careful on what it is and putting too much of an emphasis 
on that actual number. We will always look to see a greater 
client to counselor ratio, that level to go down. However, the 
most important part is the services to this--to these disabled 
veterans. And like I said, I was an example of what they can do 
for the individual veteran and having them achieve the success 
that they deserve.
    Ms. Rice. So I just want to thank the Chairman for holding 
this hearing with Mr. Streitberger, is that how you say your 
name, and all of you present because you have the management, 
who is trying to implement the program and all of you who are 
hearing firsthand from the clients about the pros and cons of 
the program.
    And I just--so I thank you, Mr. Chairman, for putting 
everyone in the same room because this is where all of you have 
to agree that you are going to work--and us too up here are 
going to work toward having this program work, not just for 
management so that their numbers and they get the credit for 
getting their numbers where they need to be, and all of you 
being advocates for your constituencies.
    This is really, really important that we are all here 
talking about this in the same room so that we can have 
accountability at the end of the day and ultimately service the 
clients who need it. So I just want to thank you all very much, 
you, Mr. Streitberger, for staying and hearing what everyone 
has to say, and all of you for participating. Thank you, Mr. 
Chairman.
    Mr. Levin. Thank you, Ms. Rice. And I have to also thank 
our great staff for making sure that everybody was able to be 
gathered here this morning. I would now like to recognize Mr. 
Cunningham for 5 minutes.
    Mr. Cunningham. Thank you, Mr. Chair, and thank you to each 
and every one of the witnesses who have come here to testify 
today and for the service you all provide to your respective 
organizations and the service you provide to our veterans. 
Thank you from the bottom of my heart.
    Mr. Fronabarger, it is good to see another South Carolinian 
here today. Welcome to D.C.
    Mr. Fronabarger. Thank you.
    Mr. Cunningham. And you are from the district, right? You 
are from the low country?
    Mr. Fronabarger. That's correct. Born and raised in 
Charleston.
    Mr. Cunningham. Okay, excellent. Nice to have you here. And 
I don't have to tell you that objectively speaking, we have the 
most beautiful district in the entire country, and it is partly 
that because we have such a high number of veterans living 
there as well. It is the highest concentration of veterans in 
the entire state of South Carolina, which I am sure you are 
aware of, right?
    Mr. Fronabarger. Correct. And I think that is a fact, the 
most beautiful.
    Mr. Cunningham. I concur and now that is part of the 
record, we can move on. And we have a great VA facility there. 
I stopped by there on Sunday afternoon and saw some of the 
staff and people keeping that one of the best facilities.
    But, you know, our VA also has some challenges and it has 
difficulty recruiting and retaining employees. And in your 
testimony, you mentioned that VRCs often have difficulty 
finding Federal employment opportunities for participants. So I 
like your idea of a pilot program to streamline the interested 
veterans into open positions at the VA. Could you provide a 
little bit more detail on how you would envision this program 
being designed?
    Mr. Fronabarger. Definitely, Congressman. I appreciate that 
question. As you know, the VA hospital in Charleston is quite 
large. There is also a good amount of schools around there: 
College of Charleston, Trident Tech, and then the Medical 
University of South Carolina. It really comes down to a 
number's game. You have 45,000 open vacancies at the VA, and 
you have about 115,000 people currently enrolled in the VR&E 
program.
    What we would like to see is a pilot program that if a 
counselor was to identify a nurse that was about to graduate or 
a police officer that was about to graduate and indicated that 
they were interested in working at the VA, they didn't have to 
jump through the same hoops, go on USA Jobs. They could say 
hey, the left hand, being the vocational rehabilitation 
counselor, speaks to the right hand, which is the VA HR 
representative saying, ``I have got a few individuals that 
might be interested, can we fast track them or at least get 
their background checked and their applications through before 
they graduate?''
    Mr. Cunningham. And obviously South Carolina being a prime 
location to implement that with all of the technical schools, 
and the education facilities. Do you think that pilot program 
could fall under one of the existing tracks under the 
vocational rehab program or was this an entirely new one that 
would need to be established?
    Mr. Fronabarger. I think it could probably--it could 
definitely fall under one of the existing tracks. For 
individuals going to school, I think this is a good option for 
them.
    Mr. Cunningham. And so this essentially just puts people 
within that program with other schools, universities, or 
organizations and has a constant open line of communication, I 
guess, with that recruiting process, correct?
    Mr. Fronabarger. That is absolutely correct. I think the 
ultimate goal is since the VA is investing in these veterans, 
to try and find meaningful employment and at the same time 
while they are looking for qualified veterans to fill these 
open positions, there should definitely be some communication 
there.
    Mr. Cunningham. I appreciate your testimony. I appreciate 
your time in coming here today, as with the rest of you all, 
and I yield back. Thank you.
    Mr. Levin. Thank you, Mr. Cunningham. And you are always 
welcome to visit California's 49th district, which includes La 
Jolla, the beautiful VA at La Jolla. Our guests from the low 
country certainly welcome as well, as is everyone else. I think 
we have got the second most veterans in the United States, but 
according to the VA, we will have--San Diego region will soon 
have the most. But no doubt we are--Mr. Cunningham, we are very 
fortunate, both of us, to represent beautiful coastal 
districts.
    If there are no further questions, I want to echo the 
comments of many of my colleagues. We are truly grateful to you 
for the work that you do on behalf of our veterans and for the 
collaborative nature of this morning's hearing. We look forward 
to hearing from each of you in the weeks and months ahead about 
the ongoing collaboration around VR&E. And I would like to 
thank the Ranking Member as well, and all of the Members who 
asked excellent questions.
    All Members have 5 legislative days to revise and extend 
their remarks, and include additional materials. Again, I thank 
everyone for coming. And without objection, this Subcommittee 
stands adjourned.

    [Whereupon, at 12:12 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

               Prepared Statement of William Streitberger
    Good morning, Chairman Levin, Ranking Member Bilirakis, and 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to appear before you today to discuss Evaluating the 
Effectiveness of VA's Vocational Rehabilitation and Employment (VR&E) 
program. I am deeply honored and privileged to appear before you today 
not only as the Executive Director of the VR&E program but as a proud 
recipient of this benefit and alumnus. I would not be testifying before 
you today had it not been for the tremendous contribution this program 
has had on my personal and professional life. Today, I am excited to 
share with you VR&E's historic modernization efforts to provide program 
participants with the benefits they have earned in a manner that honors 
their service.

VR&E Program Overview and Management

    The mission of the VR&E program is to assist Servicemembers and 
Veterans with service-connected disabilities and barriers to employment 
prepare for, find, and maintain suitable employment. Rehabilitation 
services provided to VR&E participants fall under one of the following 
five tracks:

    <bullet>  Reemployment with Previous Employer: For individuals who 
are separating from active duty or in the National Guard or Reserves 
and are returning to work for their previous employer.
    <bullet>  Rapid Access to Employment: For individuals who either 
wish to obtain employment soon after separation or who already have the 
necessary skills to be competitive in the job market in an appropriate 
occupation.
    <bullet>  Self-Employment: For individuals who have limited access 
to traditional employment, need flexible work schedules, or who require 
more accommodation in the work environment due to their disabling 
conditions or other life circumstances.
    <bullet>  Employment Through Long-Term Services: For individuals 
who need specialized training and/or education to obtain and maintain 
suitable employment.
    <bullet>  Independent Living Services: For individuals who are not 
currently able to work and need rehabilitation services to live more 
independently.

    Ninety-six percent of program participants are currently in the 
Employment through Long-Term Services track. Given that most Veterans 
in the VR&E program require significant support and re-training to 
obtain a suitable job, it stands to reason that this is the most widely 
used employment track. The services provided under this track include 
payment of all training costs, associated fees, books, supplies, and 
other required resources that are necessary for achievement of a 
suitable career goal.
    Generally, Veterans must complete a program within 12 years from 
their separation from military service or within 12 years from the date 
VA notifies them that they have a compensable service-connected 
disability. Depending on the length of program needed, Veterans may be 
provided up to 48 months of full-time services or their part-time 
equivalent. These limitations may be extended in certain circumstances.
    Currently, there are nearly 1,100 professional Vocational 
Rehabilitation Counselors (VRC) who deliver services through a network 
of nearly 350 field locations reporting up to their Regional Office 
(RO) of jurisdiction. These offices support Servicemembers and Veterans 
where they are located which currently includes 56 ROs, the National 
Capital Regional Benefits Office (NCRBO), approximately 142 VR&E out-
based offices, 71 military installations for the Integrated Disability 
Evaluation System (IDES), and 104 VetSuccess On Campus schools/sites.
    VR&E works with VBA's Office of Field Operations to provide 
oversight, policy guidance, communications, and advice to the field 
structure. As the Executive Director of VR&E, I communicate with the 
field on a daily basis and am heavily involved in all aspects of VR&E 
program field operations. Since coming on board in September 2018, I 
have instituted a comprehensive Change Management strategy to support 
Servicemembers, Veterans, family members, employees, and key 
stakeholders through the modernization process. I have traveled 
throughout the country conducting modernization townhalls to share 
VR&E's vision for program excellence and to engage in discussion with 
both VA Central Office and operational staff on key topics of interest 
and concern and solicit critical input to help guide and shape the 
future of our program. These listening sessions have included customer-
centered design focus groups with student Veterans who have been 
instrumental in informing and shaping the modernization process. I will 
continue to do this at every possible opportunity. VR&E has a Field 
Advisory and Change Committee (FACC) that is actively involved in 
rolling out the vision and messaging key changes and new initiatives. 
FACC meets once each quarter.
    There are three significant initiatives currently underway to 
strengthen VR&E's ability to monitor and ensure proper program 
execution and compliance. First, in partnership with our District 
Offices, the VR&E program office (in VACO) will expand its ability to 
provide program oversight by 80 percent, in partnership with our 
District Offices. Our new model will ensure collaborative oversight of 
each RO, every fiscal year. Second, VR&E's Quality Assurance (QA) 
Transformation will increase program effectiveness and efficiency 
through new instruments tailored to better evaluate compliance and 
performance using an issue-based scoring methodology, a statistically 
valid sampling methodology, and a revised QA Web system where both the 
local and national reviews will be completed in the same system to 
allow for comparative analysis. QA modernization will enable us to get 
a more accurate picture of the performance of our program and the areas 
needed for targeted training of staff at the national, RO, and 
individual level. Third, technology initiatives will increase our 
capability to monitor and assess program operations, enforce 
compliance, expand access controls, drive higher quality outcomes, and 
eliminate service delivery inconsistencies.

VR&E Program Outcomes

    In Fiscal Year (FY) 2018, our highly skilled and dedicated 
counselors assisted 15,997 Veterans to achieve a positive outcome. This 
is an increase of 3 percent from Fiscal Year (FY) 2017 and includes the 
following:

    <bullet>  10,735 Employment rehabilitations
    <bullet>  597 Independent Living rehabilitations
    <bullet>  794 Education rehabilitations
    <bullet>  603 Maximum Rehabilitation Gain (MRG) - employed
    <bullet>  3,268 Maximum Rehabilitation Gain - employable

    MRGs account for where VR&E contributed substantively to a 
Veteran's success in achieving employment or continuing education, 
where the goal may differ from the original rehabilitation plan 
objective.
    In addition, VR&E continued to engage, address, and resolve the 
number of program participants in a case status that has been open for 
more than 10 years. Since this initiative started in July 2015, program 
participants in this status decreased by 63 percent. This has helped in 
increasing the achievement of more positive outcomes.
    VR&E has implemented a new program metric in FY 2019-the VR&E 
Program Growth Rate, which measures the percentage of Veterans who have 
been determined to be entitled to the program and enter a plan of 
services. This metric will help us focus on increasing participants in 
the program. To support increased program growth, we are preparing to 
deploy Artificial Intelligence capabilities to streamline appointment 
scheduling, reminders, and simplify other communication touch points. 
This is one of many optimization advancements we will discuss today.
    FY 2019 marks the 10-year anniversary of the Vetsuccess on Campus 
(VSOC) program. The VSOC program began as a pilot in 2009; since then, 
the program has undergone multiple expansions. The most recent occurred 
in FY 2018 when an additional 8 VSOC counselors were assigned to 10 new 
schools in the country. The VSOC program now has 87 counselors, who 
serve 104 Institutions of Higher Learning across the country. In FY 
2018, over 86,000 student Veterans, Servicemembers, and dependents 
attended a VSOC school and had access to a VSOC counselor. VSOC 
counselors provided services to 44,687 of these students.
    VR&E continues to collaborate with the Department of Defense to 
provide VR&E services to Active Duty, Reserve, and National Guard 
Servicemembers through the IDES program. There are 145 IDES counselors 
at 71 military installations across the Nation. These counselors 
provide early intervention counseling and other available services to 
IDES participants and other wounded, ill, and injured Servicemembers. 
In collaboration with the U.S. Army's Warrior Transition Command, staff 
members jointly visit select IDES sites to improve the referral process 
and services at these military installations. The Committee's long-term 
support for automatic VR&E entitlement for wounded, ill, and injured 
Servicemembers is greatly appreciated.
    VR&E also continues to collaborate with the U.S. Department of 
Labor and the public workforce systems in each state and territory. 
Together, we work to ensure that enrolled Veterans receive labor market 
information to assist them in making informed decisions about selecting 
their rehabilitative training program. This referral process assists 
each Veteran in getting the best information and service available 
through each of these partners.
    VR&E continues to support transitioning Servicemembers, Veterans, 
and qualified dependents who are eligible for VA education benefits. 
This program (Educational and Vocational Counseling) is authorized 
under title 38, United States Code, Chapter 36, and offers a wide range 
of services, including but not limited to adjustment counseling, 
vocational testing, educational and career counseling, and VA benefits 
coaching. These services are available to most Servicemembers within 6 
months of their anticipated discharge, Veterans within 1-year post-
discharge, or any Servicemember, Veteran, or dependent that is eligible 
for specified VA education benefits. VR&E is collaborating with the 
Office of Transition and Economic Development (TED) to create a new 
strategy and vehicle for contracted title 38, chapter 36, services 
currently managed by VR&E, which is responsive to the needs of student 
Veterans and transitioning Servicemembers. Chapter 36 benefits offer a 
wide range of educational and vocational counseling services to 
Servicemembers, Veterans, and dependents who are eligible for one of 
the VA's educational benefit programs.
    Also, we have consistently heard Veterans say that they did not 
remember hearing about the VR&E program in their Transition Assistance 
Program (TAP) classes. While the TAP curriculum includes content on 
VR&E services, we recognize that we need to improve upon how this 
content is delivered. In previous testimony
    Ms. Margarita Devlin, the Principal Deputy Under Secretary for 
Benefits, informed this committee that VA will be improving upon the 
TAP curriculum with the ability to add additional time based on the 
2018 National Defense Authorization Act. VR&E Service is collaborating 
with TED to ensure that we incorporate Veteran feedback into the 
improvements to the VR&E program content.
    Training for VR&E staff is a major focus; four new counselor 
training, instructor-led, and Web-based sessions have been conducted 
this fiscal year. Approximately 156 new counselors who were hired have 
attended these sessions. The training focused on policy and procedures 
and was designed to enhance the knowledge and skill sets of the newly-
hired counselors.

VR&E Longitudinal Study

    VR&E service has continued tracking Veteran cohorts in the 
congressionally mandated 20-year longitudinal study. This study of 
Veterans who began their VR&E programs in FY 2010, 2012, and 2014 has 
provided an abundance of information including detailed analysis of 
cohort trends and Veteran satisfaction with VR&E services. From last 
year's iteration of the study, we found that nearly 90 percent of 
participants for all cohorts reported moderate to high program 
satisfaction; women make up a larger percentage of the program 
participants (17-20 percent); and about two-thirds of cohort members 
have a service-connected disability rating of about 60 percent or 
higher. The study also revealed that almost one-quarter or more of 
participants in each cohort have a primary rating for posttraumatic 
stress disorder, and around 90 percent of Veterans who have achieved 
rehabilitation from an employment plan were employed in the past year. 
The study further indicates that Veterans who successfully complete the 
VR&E program report more positive economic outcomes to include higher 
employment rates, number of months worked, annual earnings, annual and 
individual income, and home ownership, as compared to those Veterans 
who discontinued their participation in the VR&E program over time.
    Rehabilitation remains one of the most dominant variables driving 
positive financial outcomes. Therefore, we know that keeping our 
Veterans in the program until completion, is a key factor to their 
success. Our ``Modernization and Transformation'' efforts will greatly 
assist in improving rehabilitation outcomes.

VR&E Modernization & Transformation

    VR&E has embarked on a comprehensive multi-year modernization 
effort to improve customer service by streamlining processes and 
modernizing systems. VR&E Service, in conjunction with the Office of 
Business Process Integration and the Office of Information and 
Technology (OIT), has developed and is moving forward with an 
overarching plan to incrementally modernize VR&E by streamlining 
several of the administrative functions with existing technology 
solutions to include implementation of the Case Management Solution 
System (CMSS). CMSS will replace VR&E's existing 20-year old legacy 
system, Corporate Waco, Indianapolis, Newark, Roanoke, Seattle 
(CWINRS). Requests for information from industry in FY 2018 yielded 
valuable information on commercially available products. VR&E will 
leverage Software as a Service which will enable VR&E to grow with 
technology and re-engineer processes to support digital and paperless 
initiatives. We anticipate award before the end of FY 2019 to acquire 
these capabilities.
    Concurrently, VR&E is pursuing a wide-reaching modernization effort 
that will include numerous opportunities to incrementally leverage 
existing people, processes, and technology to more efficiently prepare 
us to seamlessly transition into the new CMSS. These include:

    <bullet>  Virtual Assistant: Artificial Intelligence platform which 
will enable routine bidirectional electronic communication with 
Veterans through either text message or email. This technology is 
readily available in the marketplace with similar applications 
successfully employed in other industries such as Medical, Hospitality, 
and Banking.
    <bullet>  VA Video Connect: The new VA Video Connect application 
for tele-counseling connects Veterans with their counselors from 
virtually anywhere, using encryption to ensure a secure and private 
session. The app makes VR&E appointments more convenient and reduces 
the travel time for Veterans, especially those in rural areas. It 
allows quick and easy access from any mobile or Web-based device 
(desktop, smartphone, or tablet). Tele-counseling is a service delivery 
option that provides the capability to meet Veterans on their terms, 
creating greater flexibility, convenience, and access. Since deployed 
in November 2018, VR&E has seen an increase in usage of over 200 
percent averaging over 1,000 VA Video Connect appointments per month 
using this updated platform. It is clear that Veterans and VR&E 
counselors are embracing the functionality and flexibility that this 
option provides.
    <bullet>  e-Invoicing: The Invoice Payment Processing System (IPPS) 
is an electronic invoicing platform which will enable vendors to 
receive electronic authorizations from and submit electronic invoices 
directly to VR&E. Once implemented, this capability will standardize as 
well as streamline the invoice payment process, significantly reducing 
the amount of time needed to receive, process, and pay vendors.
    <bullet>  Paperless Claims Processing: This will enable VR&E to 
store electronic records within the Veterans Benefits Management System 
(VBMS) eFolder, enabling electronic access to Veteran case files, 
moving VR&E toward a paperless work environment. The initiative began 
in Quarter 1 of FY 2019. Shipping of closed files to the scanning 
vendor will enable these files to be digitized, labeled (taxonomy), and 
stored electronically in the VBMS eFolder. It also supports VBA's 
ability to test this process for VR&E records, system functionality, 
and will minimize impact on employees serving participants in an active 
case status. Once scanned, files will be easily accessible and readily 
available for case management in a fully-electronic claims processing 
environment. This builds upon existing investments in VBA's 
modernization efforts.
    <bullet>  Centralized Mail: Will expand and enhance available 
features of the current centralized mail process utilized by 
Compensation Service to develop a separate digital portal for VR&E 
mail. Centralized Mail will streamline the receipt, processing, and 
filing of received mail potentially reducing mail processing time by 75 
percent. Physical mail will be received in a central location, scanned, 
and then disseminated to the receiving VR&E office through the 
dedicated VR&E Centralized Mail portal.

    As VR&E implements these changes, counselors will be able to manage 
workload more efficiently and effectively, allowing more time to 
provide high-quality counseling and employment services to VR&E 
participants.

Concluding Remarks

    Mr. Chairman, VR&E Service, leadership, and the field continue to 
move in the direction of modernizing and transforming this very 
consequential program. With the implementation of these initiatives 
between now and Quarter 1 FY 2021, VR&E will strive toward both 
substantially improving and enhancing the VR&E program. With the 
implementation of each component, we will assess the impact and 
improvement on the delivery of vocational rehabilitation services to 
our Servicemembers and Veterans with service-connected disabilities.
    My vision is to continually challenge the status quo, to think 
differently to provide Veterans with the benefits they have earned in a 
manner that honors their service, in the way they want to be served, 
that VR&E be a modern 21st Century facilitator of economic opportunity 
for Servicemembers, Veterans, and their families - the crown jewel of 
VBA's benefits portfolio.
    This concludes my statement, Mr. Chairman. I would be pleased to 
answer any questions from you, the Ranking Member, and other members of 
the Subcommittee.

                                 <F-dash>
                  Prepared Statement of Patrick Murray
    WITH RESPECT TO

    Department of Veterans Affairs Vocational Rehabilitation and 
Employment Program

    Chairman Levin, Ranking Member Bilirakis and members of the 
Subcommittee, on behalf of the men and women of the Veterans of Foreign 
Wars (VFW) and its Auxiliary, thank you for the opportunity to present 
our views on this important benefit.
    The Vocational Rehabilitation and Employment Service (VR&E) 
provides critical counseling and other adjunct services necessary to 
enable service-disabled veterans to overcome barriers as they prepare 
for, find, and maintain gainful employment. VR&E offers services on 
five tracks: re-employment, rapid access to employment, self-
employment, employment through long-term services, and independent 
living.
    The VFW views VR&E as a critical tool in promoting success for our 
veterans. It is at the forefront in ensuring veterans can remain in the 
workforce and stay employed in meaningful careers. Once a veteran 
receives a disability rating, and cannot continue along their original 
path in the workforce, they must choose a different route for their 
career. This is where VR&E is critical because it helps veterans remain 
employed by providing training and education for an alternative career.
    A vital part of the VR&E program is the counselors who assist 
veterans with their claims. The counselors are the key component in 
assisting veterans with their rehabilitation plan for VR&E. However, 
for VR&E counselors, training and standardization is the largest area 
of improvement needed for this program.
    Far too often VFW service officers encounter veterans who are 
eligible to receive VR&E benefits but were originally denied by the 
VR&E counselors. The subjectivity of approving eligibility leads to 
veterans being denied the benefit, when in fact they should have been 
approved immediately. There needs to be a more standardized way to 
approve the eligibility of veterans, and further training of 
counselors, so recipients do not have to fight for a benefit they 
deserve.
    Additionally, while the counselors should guide their clients 
towards making sound financial decisions with their VR&E benefit, we do 
not feel the counselors should deny claims based entirely on if there 
are cheaper alternatives. The counselors should work with their clients 
to prevent waste and abuse of the benefit, but veterans should be 
allowed to have some agency in where they receive their training. VR&E 
is not a blank check, but counselors should factor in the entirety of 
the training received and not simply the overall cost. The VFW was 
recently informed of a veteran facing difficulty with VR&E claims 
processing. The counselor is pressuring the student to attend a public 
non-profit university because it is cheaper than the private non-profit 
university the veteran would like to attend. Approving or denying 
claims based on cost does not serve the best interest of veterans who 
use the VR&E program.
    VA budget documents state that the VR&E program will meet and 
sustain the congressionally mandated goal of 1:125 counselor-to client 
ratio. However, the latest data in the VA budget document also shows 
that from 2016 to 2018, the number of VR&E participants fell from 
173,606 to 164,355--more than a five percent decrease. During that same 
period, VR&E's caseload also dropped from 137,097 to 125,513--an 8.4 
percent decline. It would appear that VR&E is able to meet the 1:125 
goal by serving fewer veterans. We understand that there have been 
major changes and upgrades to the entire program, which would enable 
veterans who were unable to use or were unaware of their VR&E benefits. 
VA must consider whether more staff is needed to meet such increased 
demand.
    The VFW supports adding more VR&E counselors on military 
installations, and also on college campuses. The Veteran Success on 
Campus (VSOC) program is an incredibly valuable resource for those 
utilizing the VR&E benefit at colleges. Currently, there are VR&E 
counselors on 71 military installations and 104 VSOC representatives on 
campuses. Given how positive the feedback is from both universities and 
students, the VFW urges Congress and VA to expand this program to as 
many locations as possible.
    While VR&E is an employment program, it is commonly used for 
training on college campuses. The processing of VR&E claims to 
universities is where we hear about a lot of VR&E problems. The 
processing of chapter 31 claims takes months to go through the system 
leaving some universities without payment for multiple semesters. In 
some cases, students are not allowed further enrollment until payments 
are made, and in others, students are being counseled to voluntarily 
not enroll until the delayed payments are made. The delays in 
processing VR&E payments are negatively affecting users of this 
program. This problem must to be rectified immediately.
    Another obstacle in utilizing the VR&E program is the 12-year 
delimitating date for eligibility. Counselor have the ability to waive 
that requirement, so it is not as much a barrier for acceptance, as it 
is a barrier for veterans seeking to apply. A common complaint we hear 
from our members when we recommend VR&E is that do not think they are 
eligible because they are past the 12-year window. We urge Congress to 
pass H.R. 444, which would eliminate the 12-year delimitating date for 
eligibility and provide veterans vocational rehabilitation for life. 
Service-disabled veterans must be authorized to receive access to VR&E 
services at any point during their employable lives when service-
connected disabilities interfere with their employment, but also as the 
economy changes to learn new employable skills.
    Another improvement the VFW would like to see is expanded tracking 
of veterans who complete their VR&E goals. Attaining employment after 
completing the program is important, but sustaining that employment is 
equally important. Tracking the long term success of veterans can help 
to build improvements into the program to better help current and 
future VR&E users. We suggest adding to the VR&E program a follow on 
service that checks in with VR&E participants at certain dates once 
they have completed the program, to ensure the program was ultimately 
successful.
    Finally, the VFW calls upon VA to better explain VR&E and its uses 
before service members separate during the Transition Assistance 
Program (TAP). A consistent complaint from our members is they were 
unaware of the VR&E program, and who is eligible for it. A lot of 
disinformation is spread by word of mouth, and there is a lot of 
confusion about eligibility, and exactly how the program can be used. 
Some veterans are approved to use VR&E to attain advanced degrees, and 
others are denied the same opportunity. The flexibility of VR&E is one 
of the best parts of the program, but not having standardized usages 
leads to a lot of confusion and resentment towards VA. A more robust 
discussion of the program within TAP classes would help mitigate some 
of the confusion surrounding VR&E and may guide more veterans towards 
using it if there is better information presented earlier.
    Mr. Chairman, this concludes my testimony. Again, the VFW thanks 
you and the Ranking Member for the opportunity to testify on these 
important issues before this Subcommittee. I am prepared to take any 
questions you or the Subcommittee members may have.

                                 <F-dash>
                Prepared Statement of Derek Fronabarger
    Chairman Levin, Ranking Member Bilirakis, and distinguished members 
of the House Committee on Veterans' Affairs, Subcommittee on Economic 
Opportunity, thank you for inviting Wounded Warrior Project (WWP) to 
testify on the effectiveness of the Department of Veterans Affairs (VA) 
Vocational Rehabilitation and Employment Program.
    Wounded Warrior Project's mission is to honor and empower the 
wounded, ill, and injured service members and veterans of the Post-9/11 
generation. Through community partnerships and free direct programming, 
WWP is filling gaps in government services that reflect the risks and 
sacrifices that our most recent generation of veterans faced while in 
service. Through more than a dozen direct-service programs, we connect 
these individuals with one another and their communities; we serve them 
by providing mental health support and clinical treatment, physical 
health and wellness programs, job placement services, and benefits 
claims help; and we empower them to succeed and thrive in their 
communities. We communicate with this community on a weekly basis and 
are constantly striving to be as effective and efficient as possible by 
matching our programs - and our advocacy before Congress - to meet 
warriors' needs.
             Forming Our Perspective on Veteran Employment
Overview

    Currently, the Bureau of Labor and Statistics (BLS) reports an 
unemployment rate for veterans of 3.8 percent \1\. Although this 
historically low level of unemployment reflects a positive trend across 
the general veteran population, based on data from our WWP Annual 
Survey and feedback from our warriors, WWP recognizes that employment, 
education, and debt remain areas of need for warriors registered with 
our organization. As discussed in more detail below, our internal data 
indicates that warriors who are wounded, ill, or injured have 
additional challenges when faced with the military to civilian 
transition, and especially in entering into a productive long-term 
civilian job.
---------------------------------------------------------------------------
    \1\ https://www.bls.gov/news.release/pdf/vet.pdf
---------------------------------------------------------------------------
    While our population is resilient and able to adapt to life's 
challenges, sustainable employment is widely regarded as the key to a 
healthy military to civilian transition. VA's Vocational Rehabilitation 
and Employment Program (VR&E) helps disabled veterans in that process. 
Although there are challenges with VA's VR&E Program, there are also 
areas where there has been much improvement. This testimony will cover 
our own demographic, the history behind the VR&E Program, current 
information technology (IT) improvements, and our recommendations for 
improvement.

Wounded Warrior Project's Employment and Education Demographic

    Each year, WWP administers the largest survey of warriors who 
served on or after September 11, 2001. In 2018, over 33,000 respondents 
completed the survey, which asks a range of questions to help us better 
understand the population we serve and adapt our programs, 
partnerships, and advocacy to meet their needs.

In Focus: Alumni Education

    Among 2018 WWP Survey respondents, 55.8 percent indicated they were 
currently enrolled in an institution of higher education and utilizing 
the Post-9/11 GI Bill, whereas 27.9 percent of our warriors surveyed 
indicated they were enrolled in VR&E. Our population has a higher than 
average usage of the VR&E program compared to the general veteran 
population. With approximately 900,000 student veterans currently using 
the Chapter 33 Post-9/11 GI Bill and 125,513 veterans enrolled in 
Chapter 31 VR&E benefits, around 14 percent of the veteran population 
is utilizing the VR&E benefit. We attribute this increase of usage in 
our population to our mission to assist the wounded, ill, and injured 
veterans of this generation. Additionally, the WWP survey indicates 
that the warriors we serve are utilizing the VR&E benefits at higher 
rates year over year, whereas the usage of the Post-9/11 GI Bill is 
decreasing each year (see Figure 1).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    As warriors pursue higher education for employment, some are 
incurring student loan debt. We know through our WWP Alumni Warrior 
Survey that finical difficulties can have a negative impact on 
veterans. The biggest trend that we have seen in student loan debt in 
our constituency is those with $30,000 or more in student loan debt 
increasing steadily since 2016. In 2016, 28.2 percent owed more than 
$30,000. In 2018, 32.5 percent owed more than $30,000 (see Figure 2) 
\2\. Specifically, regarding WWP alumni that are currently enrolled in 
VR&E, we see that over 33.6 percent have student loan debt of over 
$30,000 (see Figure 3).
---------------------------------------------------------------------------
    \2\ https://www.woundedwarriorproject.org/media/183005/2018-wwp-
annual-warrior-survey.pdf

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

---------------------------------------------------------------------------
In Focus: Alumni in the Work Force

    Among all warriors that participated in the survey, 55.1 percent 
are employed in paid work. Paid work can be considered either full-time 
or part-time. Eleven percent of our warriors indicated that they were 
unemployed. This is a decrease from 2016, where 13.2 percent indicated 
they were unemployed. While we recognized that our unemployment rate is 
higher than the Bureau of Labor and Statistics findings (BLS), this can 
be attributed to all respondents in our survey report having a 
disability status whereas the BLS information includes all veterans. 
Sixty-two percent of our alumni report having a VA disability rating of 
80 percent or more, which can lead to a higher rate of unemployment.
    Notably, unemployed warriors indicated the primary reason for not 
entering into the workforce was:

    <bullet>  61.7% - Medical/health conditions (or treatment) prevent 
them from working
    <bullet>  15.6% - Retired
    <bullet>  13.8% - In school or in a training program
    <bullet>  3.9% - Would have liked to work but have become 
discouraged about finding work and did not look for work in the past 4 
weeks
    <bullet>  3.0% - Family responsibilities
    <bullet>  2.0% - Other (non-service-connected disability) medical/
health condition (or treatment) prevents them from working

    In our survey, we asked the 61.7 percent of warriors that indicated 
``medical or health conditions prevented them from working'' to list 
factors that made it more difficult for them to obtain employment. The 
top findings included \3\:
---------------------------------------------------------------------------
    \3\ https://www.woundedwarriorproject.org/media/183005/2018-wwp-
annual-warrior-survey.pdf

    <bullet>  33.6 percent indicated that it was due to ``mental health 
issues'' and
    <bullet>  30.1 percent indicated that it was ``difficult for me to 
be around others.''

    As VR&E expands its role in ensuring veterans are employed for the 
long term, those with potential mental health concerns might benefit 
from additional counseling in civilian workforce assimilation. 
Recommending veterans with mental health challenges work with a 
specialist that focuses on integration into the civilian work 
environment can be as beneficial as physical rehabilitation is for 
those with physical wounds. Below are comments made by our warriors 
regarding problems adapting to the civilian workplace:

    <bullet>  I only feel comfortable in combat. I do not feel 
comfortable in civilian life or trust it.
    <bullet>  I think the most challenging thing is where in the 
Military you have a certain routine that everyone is used to and then 
you get out here in the civilian world, and there's a whole Whirlwind 
of changes and getting acclimated as well as trying to find common 
ground with people you'll be exposed to on a daily basis.
    <bullet>  Dealing with civilians & finding work that is flexible 
enough to permit me to go to my appointments.
    <bullet>  Regarding difficulty in employment, it is not that no one 
will hire me because of my injury or disability, but because they later 
will force me out of the job for that reason because I need to go to 
the hospital or appointments so much for my disabilities.

Meeting Needs Through WWP Programs

    Wounded Warrior Project's Warriors to Work Program assists veterans 
searching for jobs after military service, with a particular emphasis 
on providing assistance at transition. This program provides a range of 
services designed to meet veterans wherever they are in their job-
seeking process. We assist warriors with resume building, job 
placement, interview skills, and skill translators. WWP recognizes that 
meaningful employment is critical to a successful transition from 
military to civilian life. Service-connected disabilities often make 
finding meaningful and long-lasting employment difficult. As WWP 
programming is designed to fill gaps in government services and raise 
awareness for federal, state, and local resources that exist, Warriors 
to Work staff members regularly recommend the Vocational Rehabilitation 
and Employment Program to those whose disability affects their long-
term employment.
   Overview of Chapter 31, Vocational Rehabilitation and Employment 
                                Program:
    Under Chapter 31 of Title 38, the VR&E program is intended to be an 
entitlement program that provides employment opportunities through job 
training and other employment-related services, to include education, 
job search services, and small business start-up funds. The goal of the 
VR&E program is to evaluate and improve the veteran's ability to 
achieve a vocational goal; provide services to qualify for suitable 
employment; enable a veteran to achieve maximum independence in daily 
living; and, enable the veteran to become employed in a suitable 
occupation and to maintain suitable employment as outlined in 38 U.S.C. 
Sec.  3104; 38 C.F.R. Sec.  21.70(a). Development of an Individualized 
Written Rehabilitation Plan (IWRP) is required for each veteran 
eligible for rehabilitation services under Chapter 31, 38 C.F.R. Sec.  
21.80(a). An IWRP is prepared in each case when a veteran will pursue a 
vocational rehabilitation program or an extended evaluation program. 
The plan will be jointly developed by VA staff and the veteran, and the 
terms and conditions of the IWRP must be approved and agreed to by the 
Counseling Psychologist (CP) or the vocational rehabilitation 
specialist (VRC), and the veteran. In FY18, 165,943 veterans received 
evaluation and counseling services with a total of $1,431,562,000 spent 
on the VR&E program \4\.
---------------------------------------------------------------------------
    \4\ https://fas.org/sgp/crs/misc/RL34627.pdf
---------------------------------------------------------------------------
    While the VR&E program is primarily an employment service, in the 
case where a disabled veteran is unable to work, the VR&E program 
provides independent living (IL) assistance, which is aimed at making 
sure that eligible veterans are able to live independently to their 
maximum capacity. For up to 28 months, individuals in the IL assistance 
program may be entitled to assistive technology; specialized medical, 
health, and rehabilitation services. Enrollment into the IL assistance 
program is capped at 2,700 participants per year.
    To be eligible for assistance under VR&E, a veteran must have at 
least a 10 percent VA disability rating and found to have a ``serious 
employment handicap,'' or at least a 20 percent VA disability rating 
and found to have an ``employment handicap.'' Once qualified for 
services through VR&E, a veteran may be placed into one of five 
different tracks:

    <bullet>  Employment through Long-Term Services - The Employment 
through Long-Term Services is for veterans who require university-level 
education or vocation training to become employable. This track is 
currently the most frequently used track.
    <bullet>  Self-employment *- While not utilized as much as some of 
the other programs, the Self-employment program assists veterans in 
starting their own company with start-up funds, equipment, training, 
and business plan review.
    <bullet>  Rapid Access to Employment - Considered the quickest way 
to employment, the Rapid Access to Employment track relies on a network 
of vetted employers to place veterans directly into the job field.
    <bullet>  Reemployment - If a disabled veteran wishes to and is 
capable of reemployment in a job they had before their disability 
occurred, but current working conditions are not suitable for their 
disabilities, the Reemployment track can assist with employer 
disability training and adaptive equipment for the veteran.
    <bullet>  Independent Living - If the disabled veteran is 
considered unemployable, the Independent Living track can assist by 
offering the veteran 28 months of assistive technology and training on 
independent living skills.

    While VR&E benefits are typically limited to 48 months, these 
tracks can be extended. Additionally, veterans may change tracks if 
their disability worsens, which is critical for veterans with medical 
issues that evolve over time.
    It is the responsibility of VA to ensure it has made reasonable 
efforts to inform and assure the veteran's understanding of the 
services and assistance that may be provided under Chapter 31 to help 
them maintain satisfactory cooperation and conduct, and to cope with 
problems directly related to the rehabilitation process, especially 
counseling services.

History of Chapter 31, Vocational Rehabilitation and Employment 
    Program:

    In 1918, P.L. 65-178, the Vocational Rehabilitation Act provided 
retraining assistance for disabled veterans who served in the U.S. 
military and naval forces and was administered by the Federal Board for 
Vocational Education. In 1921, administration of the program was 
transferred to the newly created Veterans' Bureau. In 1943, P.L. 78-16 
was enacted which broadened eligibility and authorized up to four years 
of educational assistance to restore employability to disabled 
veterans. While in the intervening years the scope of the program has 
been modified and expanded, in 1999, the name was officially changed to 
Vocational Rehabilitation and Employment in order to emphasize the 
program's focus on employment rather than education. The goal was to 
inform veterans that education was a tool available to those in the 
VR&E program, but employment was the ultimate goal. In 2003, the 
Secretary of Veterans Affairs, via the 110 recommendations made by a 
task force and the Government Accountability Office (GAO), formed the 
separate employment tracks and indicated that better measures and 
monitoring with a focus on employment could improve the performance of 
the program.
    The VR&E program is administered by the Under Secretary of Benefits 
at VA. There are two primary individuals working the day to day 
operations of the VR&E program. The VR&E Service Director determines 
policy and priorities and the Deputy Under Secretary of Field 
Operations manages and allocates employees to 56 regional benefits 
offices. VR&E uses a decentralized approach that has over 350 local 
offices and 1,335 staff, including Vocational Rehabilitation Counselors 
(VRC), Employment Coordinators, and support staff.
    In practice, VR&E staff workload is dictated by the number of 
veterans applying for VR&E benefits, the number of those veterans who 
enter into the program, the number of new cases versus the completion 
of current ongoing cases, the change in military strength overall, and 
the influx in military service-related injuries and illnesses. These 
are the areas that VR&E leadership should track to judge potential 
influxes or lapses in case workload.

Current IT and Case Management System Updates

    Recently, WWP spoke with the office overseeing the VR&E program at 
the VA headquarters regarding its new Case Management System, which is 
replacing its Corporate Windows Remote Shell System (WINRS). We were 
very pleased with the current progress of the IT transformations, and 
the innovate approach this office is taking to address known shortfalls 
in the VR&E program.
    VA will implement seven separate modernization initiatives starting 
in the first quarter (Q1) of FY19 with scheduled completion in the 
fourth quarter (Q4) of FY21. Currently, the VR&E program has 
implemented the first four of the seven initiatives. These seven 
initiatives are:

    <bullet>  Initiate eFolder (Q1 FY19) -Will ensure that VR&E begins 
using an eFolder to electronically store documents that were formerly 
completed using paper.
    <bullet>  Scan Surplus Cases (Q1 FY19) -Will scan closed cases into 
the eFolder, so there is a digital archive of all cases.
    <bullet>  E-Invoicing (Q1 FY19) - Will create a standardized 
invoice processing system which will drastically reduce the 
administrative burden currently placed on counselors and administrative 
staff.
    <bullet>  Virtual Assistant (Q2 FY19) - A virtual assistant program 
that will assist in scheduling appointments via text messages, emails, 
and other platforms to ensure counselors can better utilize their time.
    <bullet>  Centralized Mail (Q4 FY19) - Will eliminate the need for 
manual processing in receiving mail and streamline the intake of paper.
    <bullet>  Active Folder Scan (Q4 FY19) - Will allow paper reports 
to be uploaded into the eFolder to helpfully transition to a paperless 
operation.
    <bullet>  Case Management Solution Service (Q4 FY19) - Will utilize 
all former changes to re-engineer processes to serve veterans better.

    Of these seven initiatives, WWP is particularly excited for the 
Virtual Assistant and E-Invoicing provisions. The Virtual Assistant is 
an artificial intelligence platform which will enable VA to communicate 
with the veteran through text messaging or e-mail. One aspect that WWP 
finds innovative is the ability for veterans to confirm their 
appointment via text or alter the appointment through the Virtual 
Assistant.
    WWP spoke with Vocational Counselors around the country. They 
indicated that the E-Invoicing initiative would drastically reduce 
administrative functions and allow counselors more face-to-face time 
with veterans. Additionally, warriors going through the VR&E program's 
Employment through Long-Term Services suggest that delayed payments to 
educational institutions have an extremely negative impact on their 
performance. These delays are disruptive to the veteran's educational 
and employment goals. It is our hope that the new E-Invoicing provision 
will cut down on instances where veterans are denied college supplies, 
books, and even barred from classes, due to delayed invoice payments or 
errors on behalf of the VA.
    Additionally, VR&E will be introducing a Tele-counseling ability 
using VA's Video Connect Software. WWP is pleased that VA has 
incorporated this tool as well. We find that at times, it can be 
difficult for veterans to drive to a local office due to time 
constraints or location. Using Tele-counseling will drastically reduce 
``no-shows'' and allow counselors to have more interaction with the 
veteran. VA has also incorporated Dragon Speech Recognition software 
for counselors to dictate their notes in a timelier manner. VR&E's 
approach in using Software as a Service (SaaS) such as the Dragon 
Speech Recognition and Virtual Assistant is an innovative approach that 
we recommend VA adopt more widely. SaaS software can many times be more 
cost effective, easy to update, and easy to change as technology 
evolves and becomes more complicated. We applaud VR&E for being one of 
the first VA offices to utilize commercial-off-the-shelf (COTS) 
products to more efficiently achieve positive results for veterans.
    WWP is optimistic for the current IT and Case Management Software 
updates that VA has and will continue to implement in the upcoming 
fiscal year. We find it encouraging that many of the provisions 
outlined in this section were recommendations made by VSO testimony in 
previous years.

VR&E 20 Year Study

    In 2008, Congress enacted P.L. 110-389, the Veterans Benefits 
Improvement Act of 2008. This legislation required VA to conduct a 20-
year longitudinal study of veterans who entered into one of the five 
VR&E tracks. Three cohorts from FY10, FY12, and FY14 were chosen to be 
a part of the study. The intent is to determine long-term employment 
outcomes after a veteran exits the VR&E program.
    In a GAO report from 2014 titled, VA Vocation Rehabilitation and 
Employment - Further Performance and Workload Management Improvements 
are Needed (GAO-14-61), GAO advises VA to increase their management and 
data collection on this 20-year study.
    These annual reports help organizations like WWP identify areas 
where we might need to focus information for our constituents. In 2016, 
VA released information showing that 81.2 percent, or 111,270 
individuals, participating in Chapter 31 education benefits are OEF, 
OIF or OND veterans \5\. This information helps WWP understand where 
potential lapses in care might be and how we can assist.
---------------------------------------------------------------------------
    \5\ Vocational Rehabilitation and Employment (VR&E) Longitudinal 
Study (PL 110-389 Sec. 334), 2017.
---------------------------------------------------------------------------
                    Recommendations for Improvement
Raise Awareness and Improve Clarity/Intentions

    The process to enroll in Chapter 31 educational benefits appears 
significantly different between locations where the program is offered. 
While one veteran is entitled to participate in a graduate degree 
program, another veteran will be authorized for an associate degree 
program even though both veterans have similar backgrounds and goals. 
This is primarily due to an ambiguous and seemingly subjective process 
for the establishment of the entitlement. WWP recommends that the VA 
and the VSO community educate veterans on the intent of the program 
before applying for VR&E benefits. This benefit is an employment 
benefit that utilizes education as one of its many tools for 
employment. For the Employment through Long-Term Services to be 
considered the correct track, the veteran's disability must be 
interfering with their ability to obtain employment and their education 
benefits already depleted. This program is not an additional education 
program to assist the veteran in obtaining a masters or higher 
education degree debt free. However, if a counselor deems that a master 
or higher education degree is in the best interest of the veteran due 
to their disability, then they can authorize the veteran to enroll in 
classes.
    Additionally, there is anecdotal evidence of applicants being told 
to a) apply to less expensive online programs; b) denied approval with 
little explanation, and c) refused utilizing of the program for a 
graduate level degree even if it is in the best interest of the 
veteran. We have also heard from VRCs that inappropriate staffing is a 
continual issue, especially in large population locations, and 
counselors are continually pressured by leadership to lower the average 
cost of each veteran using the program. A common complaint we have 
heard from veterans is the inability to switch to another counselor if 
they feel their current counselor is not assisting with reaching their 
employment goals. These are all issues that we recommend VA address 
with internal policy changes.

Increase Subsistence Allowance

    WWP requests that VA align its subsistence allowance to those 
outlined in Chapter 33 of Title 38. While a subsistence allowance is 
necessary for a veteran to complete the Chapter 31 employment goals, a 
common complaint is the amount does not translate equally among rural 
areas versus city living. The VR&E subsistence allowance of 
approximately $900 per month does not have the same financial 
assistance power in Los Angeles, CA as it does in Charleston, SC. We 
have heard of reports where veterans discontinue their participation in 
the program due to financial difficulties. In the 2014 GAO report, 18 
percent of veterans who withdrew from their employment services cited 
``financial difficulties.'' Another 27 percent indicated ``family 
obligations,'' which could be considered financial difficulties as well 
depending on the situation \6\.
---------------------------------------------------------------------------
    \6\ https://www.gao.gov/assets/670/660160.pdf
---------------------------------------------------------------------------
    According to our 2018 Warrior Survey, the top three most common 
forms of debt are car loans, credit cards, and mortgage debt (see 
Figure 3). A veteran experiencing financial hardship regarding their 
car or home loan will affect their ability to attend VR&E courses or 
counseling. Because ``financial difficulties'' are common with those 
enrolled in VR&E, we recommend a pilot program to assist veterans 
deemed to be at risk of financial hardships to receive financial 
literacy classes through VR&E. If a large population of veterans is 
discontinuing their participation due to financial hardships, a program 
to address financial issues before they become catastrophic could 
increase the veteran completion rate.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

Counseling and Financial Assistance

    As outlined by the comments our warriors made regarding the 
workforce (see ``In Focus: Alumni in the Work Force''), warriors often 
feel challenges in transitioning from the military to the civilian 
workforce. They can feel left out or unwelcomed, and at times, 
isolated. Because of this, WWP recommends a pilot program offering 
mental health counseling to those with invisible wounds and general 
classes on adapting to the civilian workplace for all veterans 
receiving VR&E counseling. WWP also recommends that VRCs emphasize the 
need to attend medical appointments while participating in the program 
because sufficient health maintenance can become more challenging upon 
entering the workforce.
    Additionally, due to the high amount of student loan debt for those 
with disabilities rated at 100 percent, WWP recommends that VR&E 
counselors include Department of Education Student Loan discharge 
information for any veteran who is 100 percent VA disabled.

Change the Program Name

    WWP recommends VA change the name of Chapter 31, Vocational 
Rehabilitation and Employment Program. We recommend VA remove the word 
``Rehabilitation'' and replace it with something more appropriate for 
21st-century life. At the present time, the word ``rehabilitation'' or 
``rehab'' is associated with programs for those seeking assistance for 
substance abuse. In 1918, when the VR&E program was launched, 
``rehabilitation'' was defined as:

    <bullet>  Noun 1. Rehabilitation - the restoration of someone to a 
useful place in society
    -the treatment of physical disabilities by massage and 
electrotherapy and exercises \7\
---------------------------------------------------------------------------
    \7\ https://www.webster-dictionary.org/definition/Rehabilitation

---------------------------------------------------------------------------
    Today, that same term is defined by the same dictionary as:

    <bullet>  Noun 1. Rehabilitation - the action, process, or result 
of rehabilitating or of being rehabilitated: such as:
    -the process of restoring a person to a drug- or alcohol-free state
    -process of restoring someone (such as a criminal) to a useful and 
constructive place in society \8\
---------------------------------------------------------------------------
    \8\ https://www.merriam-webster.com/dictionary/rehabilitation

    While the word ``rehabilitation'' was appropriate in 1918, it is no 
longer widely used in the same fashion today. To alleviate confusion 
among those not familiar with the program, including prospective 
employers, Congress should consider a new name that more appropriately 
---------------------------------------------------------------------------
conveys the nature of the VR&E program to civilians in 2019 and beyond.

Improve Staffing Model

    Current statute requires VA to maintain a VR&E Counselor to veteran 
ratio that does not exceed 125 veterans to one full-time employee \9\. 
While VA has hired additional counselors, and the improved IT and Case 
Management System are promising, we recommend that Congress and VA 
reevaluate what an appropriate ratio is. It might be that with more 
complex cases going through VR&E 125 is too many or that with the new 
Case Management System and other IT changes, Vocational Counselors are 
able to serve more veterans at one time and not become overburdened.
---------------------------------------------------------------------------
    \9\ P.L. 114-223
---------------------------------------------------------------------------
Improve the Self-Employment Track

    The VR&E Self Employment track is for veterans who have limited 
access to traditional employment and might need a flexible work 
environment to accommodate disabilities. Assistance may include 
business plan development, training in operations of small business, 
and most importantly, access to start-up funds for a small business. 
Access to capital is considered one of the biggest barriers of entry 
for starting a small business. While we agree that the Self Employment 
track is not suitable for everyone, we do feel that it is currently 
underutilized due to the complexity and risk in establishing a 
successful employment outcome for someone wanting to start their own 
business.
    Wounded Warrior Project recommends a closer look into this track to 
find ways to work with other federal organizations, such as the 
Veterans Employment and Training Service office at the Department of 
Labor and the Small Business Administration to promote this track to 
more veterans while ensuring proper spending of public dollars.

Improve Employment Placement

    The ultimate goal of the VR&E program is to provide long-lasting 
employment. There is a direct correlation between job satisfaction and 
the likelihood of resigning from a job within 12 months. According to a 
national survey of American workers, 40 percent of employees who 
reported an expectation to leave their job within the first 12 months 
cited that they were ``less than satisfied'' with their employment 
\10\. We also know through our survey that veterans are gravitating 
towards federal, state, and local government jobs \11\. In 2015, 32 
percent of all new government hires were veterans \12\. While veterans 
are applying for these open positions in record numbers, we have heard 
from VRCs that it can be difficult finding federal employment for 
participants. This can be due to the complexity of applying and 
obtaining employment in the federal government. WWP recommends a pilot 
program to streamline veterans who are in the VR&E program into open 
positions at VA. By working with VA's internal Human Resource Office, 
the VR&E program can direct veterans into healthcare related fields 
with the goal of filling critically needed VA positions. Currently, 
there are 45,239 open vacancies at the VA \13\ and around 125,000 
participants in the VR&E program. This seems to be a natural fit for 
those looking for employment.
---------------------------------------------------------------------------
    \10\ http://www.hrcouncil.ca/documents/LMI--satisfaction--
retention.pdf
    \11\ https://www.woundedwarriorproject.org/media/183005/2018-wwp-
annual-warrior-survey.pdf
    \12\ https://federalnewsnetwork.com/hiring-retention/2016/11/
veterans-made-32-percent-new-government-hires-2015/
    \13\ https://www.va.gov/opa/pressrel/pressrelease.cfm?id=5104
---------------------------------------------------------------------------
                            Closing Remarks
    While Chapter 31, Vocational Rehabilitation and Employment Program 
have some exciting changes in the form of how it administers the 
benefit, there remain concerns and areas for increased investment and 
focus. In FY18 there were:

    <bullet>  27,194 new enrollees,
    <bullet>  66,772 participants who carried over from FY17,
    <bullet>  597 were added into the Independent living program,
    <bullet>  10,735 were in a non-education employment program,
    <bullet>  794 were in an education program,
    <bullet>  603 gained employment,
    <bullet>  3,268 were considered employable but did not have a job, 
and
    <bullet>  15,550 were discontinued

    Most concerning is the 15,550 veterans that were discontinued from 
the program and the 3,268 veterans that were considered employable but 
had not received a job yet. While the new case management system will 
likely assist the Vocational Rehabilitation Counselors with bandwidth 
issues, we hope that VA does not increase case workload, but instead, 
focus on lowering these two data points and addressing more deeply the 
needs of veterans seeking work. While there will always be veterans who 
do not perform at the standard needed to remain in a program, this 
amount seems unusually high. It is our assumption that some of the 
veterans that were discontinued were due to issues that could have been 
resolved if the counselor had the time to understand the individual 
frustrations or limitations of the veteran.
    Wounded Warrior Project thanks the Subcommittee on Economic 
Opportunity, its distinguished Members, and all who have contributed to 
the policy discussions surrounding this issue. We share a sacred 
obligation to serve our nation's veterans, and WWP appreciates the 
Subcommittee's effort to identify and address challenges and successes 
we see within VAs Vocational Rehabilitation and Employment program.

                                 <F-dash>
               Prepared Statement of Jeremy M. Villanueva
    Chairman Levin, Ranking Member Bilirakis and Members of the 
Subcommittee:

    Thank you for inviting DAV (Disabled American Veterans) to testify 
at this oversight hearing of the Subcommittee of Economic Opportunity 
regarding the Vocational Rehabilitation and Employment (VR&E) program 
of the Department of Veterans Affairs (VA).
    DAV is a congressionally chartered national veterans' service 
organization of more than one million wartime veterans, all of whom 
were injured or made ill while serving on behalf of this nation. To 
fulfill our service mission to America's injured and ill veterans and 
their families, DAV directly employs a corps of more than 260 National 
Service Officers (NSOs), all of whom are themselves wartime service-
connected disabled veterans, at every VA Regional Office (RO) as well 
as other VA facilities throughout the nation. Together with our 
chapter, department, transition and county veteran service officers, 
DAV has over 4,000 accredited representatives on the front lines 
providing free claims and appeals services - including for VR&E 
programs - to our nation's veterans, their families and survivors.
    We represent over one million veterans or survivors, making DAV the 
largest veterans' service organization (VSO) providing claims 
assistance. This testimony reflects the collective experience and 
expertise of our thousands of dedicated and highly trained service 
officers who provide free claims and appeals assistance to hundreds of 
thousands of veterans and survivors each year.
    Our mission begins with the principle that this nation's first duty 
to veterans is the rehabilitation and welfare of its wartime disabled. 
This principle envisions vocational rehabilitation and/or education to 
assist disabled veterans to prepare for and obtain gainful employment 
so that the full array of talents and abilities of disabled veterans 
are used productively.
    In fact, all of DAV's National Service Officers have received or 
are currently receiving services through VR&E as part of the DAV 
National Service Officer Apprentice Program through a Memorandum of 
Understanding (MOU) with VA's VR&E program.
    I testify before you today, not just as an advocate for disabled 
veterans but also representing a successful outcome of VR&E. As a 
veteran of the United States Marine Corps I had utilized my educational 
benefits under the Post-9/11 GI Bill and attained a bachelor's degree 
at California State University of Bakersfield in 2013. However, due in 
part to my disabilities, I could not obtain gainful employment that 
utilized my college education. When I was hired by DAV in 2014, I was 
enrolled in VR&E, provided a vocational plan that took into 
consideration my service-connected conditions and assisted in my first 
16 months of employment as a National Service Officer (NSO) where I 
personally assisted veterans with their VA claims, to include applying 
for VR&E benefits. I completed the DAV NSO Training Program in October 
2015 and was promoted to DAV's office at the Board of Veterans' Appeals 
in July 2016 where I represented veterans before Veterans Law Judges to 
help secure their earned benefits before being appointed to my current 
position on DAV's legislative staff. I am an example of how VR&E can 
help a veteran find the path to economic success that is best suited 
for that individual.

VA VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAM

    The VR&E program, also known as the Chapter 31 program, assists 
veterans and service members with service-connected disabilities and an 
employment barrier to prepare for, obtain, and maintain suitable 
employment. Veterans with at least a 20 percent disability evaluation 
or a 10 percent evaluation with a serious employment handicap meet the 
eligibility criteria. VR&E provides comprehensive services to include 
vocational assessment, rehabilitation planning, and employment 
services. For veterans with service-connected disabilities so severe 
that they cannot immediately consider work, the VR&E program offers 
services to improve their ability to live as independently as possible 
within their families and communities.
    VR&E administers these benefits through a decentralized service-
delivery network comprised of nearly 360 offices throughout 56 regions, 
each anchored by an RO. As of the end of fiscal year (FY) 2018, VR&E 
was comprised of a workforce of 1,645 staff, including Vocational 
Rehabilitation Counselors (VRC), Employment Coordinators, support 
staff, and managers.
    VR&E's workload is driven by a number of factors, including: (1) 
the number of veterans applying for rehabilitation benefits and 
services; (2) the number of veterans who enter into the development and 
implementation of a rehabilitation plan; (3) the associated growth of 
disability claims consistent with the ongoing reduction of the claims 
backlog; (4) changes to total volume of military separations due to 
military end-strength policy; and (5) frequency/severity of service-
related injuries/illnesses. Once a veteran or service member applies 
and is determined eligible for services based on service-connected 
disability rating and honorable discharge, the veteran meets with a VRC 
to complete a comprehensive vocational assessment. The VRC will then 
make an entitlement determination based on the counselor's interview 
that determines whether the veteran's disabilities impair their ability 
to find and hold a job. If the veteran or service member is not 
entitled to VR&E services, the counselor will assist with any necessary 
referrals for other services such as referrals to state vocational 
rehabilitation programs, local employment agencies, or other local or 
state training programs.
    The cycle of an active VR&E case may extend up to and beyond six 
years. This is necessary to provide adequate training for veterans so 
that they can obtain employment that accommodates their disabilities 
and provides a career foundation that is appropriate to their 
education, abilities, and ambition. In addition, counselor follow-up 
after securing an occupation is crucial to ensuring the veteran is 
employed and will stay employed.
    When service-disabled veterans seek to reintegrate, they should be 
knowledgeable about not only what educational and occupational benefits 
are available but which one is right for them. While the GI Bill 
focuses on education and training, VR&E counselors work with veterans 
to develop an individualized development plan following one of five 
tracks:

    <bullet>  Reemployment - for veterans who served in active military 
service or in the national guard or reserves, and are now returning to 
employers for whom they worked, prior to going on active duty;
    <bullet>  Rapid Access to Employment - for individuals ready to 
seek employment after separation and have the necessary skills to be 
competitive;
    <bullet>  Self-Employment - for individuals who have job skills to 
start a business;
    <bullet>  Employment through long-term services - provides an 
extended period of training and rehabilitation services to ensure that 
veterans acquire the skills necessary to obtain and maintain suitable 
employment;
    <bullet>  Independent Living (IL) - for individuals unable to work, 
provides support to achieve maximum independence in daily living and, 
whenever possible, increase the individual's ability to participate in 
an extended evaluation to explore the potential to return to work

    While many veterans will utilize the GI Bill and thrive, there are 
many who would be better served by one of VR&E's five tracks. The 
importance of the veteran knowing which option they would be better 
suited for cannot be understated.
    In 2008, Congress passed the Veterans' Benefits Improvement Act, 
which required VA to conduct a 20-year longitudinal study of veterans 
who applied for and entered into a plan of services in the VR&E program 
in fiscal years (FY) 2010, 2012, and 2014. These three cohorts are 
being followed annually for 20 years each. Survey data collection 
started in 2012 for the first two cohorts and in 2014 for the last 
cohort. The primary focus of the VR&E Longitudinal Study is on the 
long-term employment and standard of living outcomes for VR&E 
participants after they exit the program.
    The preliminary results from these studies are showing that VR&E is 
an effective program that enhances the economic outlook for the 
veterans who utilize it. In the VR&E Longitudinal Study Annual Report 
2018 for FY 2017, it reported that approximately 90 percent of veterans 
who have achieved rehabilitation from an employment plan were employed 
in the past year for all three cohorts and that amongst Cohort 1 and 
Cohort 2, the rate of homeownership was higher than the general 
population of the United States (70 percent and 67 percent versus 64.2 
percent, respectively). Combine this with reported incomes that are at 
least $18,000 dollars higher than for those who discontinued the 
program, VR&E is proving to be a valuable resource to America's 
disabled veterans.
    But there are some areas to improve upon. Rural and economically 
disadvantaged veterans continue to have barriers to access to benefits. 
Despite data showing how beneficial VR&E can be, participation rates in 
the programs are down even as the target population is growing. We are 
concerned that VA's hiring of new counselors to strengthen the program 
and increase services to disabled veterans, is being negated by 
utilizing these counselors to do administrative tasks. In addition, 
VR&E is suffering from a lack of resources and funding.

DECREASE IN PARTICIPATION

    VA's Budget Request for FY 2020 states that the VR&E program will 
meet and sustain the congressionally mandated goal of 1:125 counselor-
to client ratio. However, the latest data in the VA budget document 
also shows that from 2016 to 2018, the number of VR&E participants fell 
from 173,606 to 164,355--more than a five percent decrease. During that 
same period, VR&E's caseload also dropped from 137,097 to 125,513--an 
8.4 percent decline. It would appear that VR&E is able to meet the 
1:125 goal by serving fewer veterans. VA's Principal Under Secretary 
for Benefits acknowledged the decrease before this Subcommittee during 
a hearing in April 2019 and indicated VBA could not explain why this 
occurred. We are concerned that the lack of counselors over the years 
has finally caught up to VA and participation in VR&E has dropped 
because of this. We question if VR&E has instituted any new policies or 
practices that have deterred disabled veterans from seeking these 
services and what action is VA taking to increase awareness of the 
availability and benefits of VR&E services.
    We are troubled that this decrease comes at a time when the latest 
VR&E Longitudinal Study finds that the number of participants had been 
increasing with each cohort. Cohort II (FY 2012) is 43 percent larger 
than Cohort I (2010) and Cohort III (2014) is 95 percent larger than 
Cohort I. Also, the study notes that the all three cohorts consist of 
younger veterans who are more likely to have served during the Gulf War 
II era, with two-thirds of these veterans having a service-connected 
disability rating of 60 percent or higher.
    The decrease in participation is particularly concerning when 
viewed with the current statistics released by the Bureau of Labor and 
Statistics. In March 2019, the Bureau released its report that showed 
of Gulf War II era veterans, 41 percent had a service connected 
disability rating and, of that 41 percent, 50 percent had a rating of 
60 percent or higher. And participation of that era of veteran is 
growing. Beginning in 2016, Gulf War Era veterans became the largest 
veteran cohort. Additionally, across all generations, the rate of 
service-disabled veterans who are unemployed has remained statistically 
higher than veterans with no disability, 5.2 percent compared to 3.5 
percent.

COUNSELOR-TO-VETERAN RATIO

    The transition of service-disabled veterans to meaningful 
employment is strengthened by VA's ability to provide vocational 
rehabilitation and employment services in a timely and effective 
manner, but the demands and expectations being placed on the VR&E 
service are exceeding the organization's current capacity. DAV's 
Resolution No. 191 supports strengthening the VR&E service to meet the 
demands of service-disabled veterans by providing increased staffing 
and funding, a timelier and effective transition into the workforce, 
and placement follow-up with employers for at least six months.
    Public Law 114-223 calls for VR&E not to exceed 125 veterans to one 
full-time employee (FTE). In the FY 2020 VA budget request, an 
additional 70 VRCs were requested to provide comprehensive 
individualized services in geographical areas where the ratio exceeds 
125:1. In 2018, VR&E's rolling average counselor caseload ratio was 
131:5.
    While the request for 70 additional FTE is encouraging, the total 
FTE for that time period only rose by four. According to the Summary of 
the Budget Request, the total FTE increase between 2018 and 2020 is 18 
FTE and only four between 2019 and 2020. We question where the 
additional 70 counselors will come from and if VA is adding counselors 
at the expense of other staff? Additionally, VA noted in its assessment 
of the recent tele-conferencing pilot program that VRCs who 
participated in the program ``had to assume duties that were generally 
completed by Program Support Staff-the scheduling of appointments, 
monitoring of attendance, sending 10-day letters, and completing 
closure activities for those applicants who did not show for their 
scheduled appointments.'' Increasing counselors but losing other 
essential staff undercuts the benefit of achieving the 125:1 ratio.

TELE-COUNSELING

    In early 2017, the VA initiated a pilot program in the St. 
Petersburg RO with 3 VRCs that used secure video teleconferencing 
technology to enable them to remotely counsel veterans. VR&E's tele-
counseling application was developed through a partnership with VHA's 
VA telehealth services. The purpose of the pilot program was to give 
veterans who have busy schedules, live in rural locations, and/or face 
transportation challenges easier access to VR&E benefits and resources. 
This initial pilot included 196 VR&E applicants and VA reported the 
following findings:

    <bullet>  82 of the 196, or 42 percent of the potential 
participants, indicated an interest in taking part in the pilot;
    <bullet>  Of the 58 percent who were not interested in 
participating, the most commonly stated reason was lack of access to a 
computer or internet; the next most cited reason was the preference to 
have an in-person meeting with their VRC;
    <bullet>  Of those who participated in a tele-counseling session, 
the average travel time saved was four hours. Of note, seven 
individuals that were not determined to be entitled would have had to 
drive between four and six hours roundtrip just to be told they were 
not entitled to VR&E benefits.

    This past March, VR&E expanded tele-counseling services nationwide 
to over 1,000 counselors. We are encouraged that VR&E has taken steps 
to reduce travel requirements to both veterans and VRCs alike, 
facilitate better case management, and help veterans to obtain their 
benefits more efficiently. It should be noted though, that this program 
should remain an option for veterans and not standard protocol. The 
pilot program showed that there were significant numbers of veterans 
who preferred face-to-face meetings with their counselors. In addition, 
VA needs to address the ``digital divide'' issues so that rural and low 
income veterans who do not have access to reliable internet or 
computers are not excluded from participation. A collaborative effort 
between Microsoft Corp and VA to extend broadband internet connectivity 
to underserved rural veteran communities is one example of how the VA 
can address this issue. Extension of broadband services is essential to 
the success of not only tele-counseling but also tele-health.

VETERANS ECONOMIC OPPORTUNITY ADMINISTRATION

    In order to further strengthen VA's education, economic 
opportunities and transition programs, to include VR&E, DAV supports 
the creation of a fourth administration within the VA, which would be 
comprised of VBA programs currently under the purview of the Office of 
Economic Opportunity (OEO). The new Veterans Economic Opportunity and 
Transition Administration (VEOTA) would include critical programs such 
as VR&E, the GI Bill and the Transition Assistance Program (TAP) for 
transitioning service members.
    At present, VA is comprised of three administrations: VBA, VHA, and 
the National Cemetery Administration. VBA includes not only 
compensation and pension programs for veterans, but also education 
programs, VR&E, home loan, veteran-owned business programs, and the 
broadly defined transition program, which is shared with DOD and the 
Departments of Labor (DOL) and Homeland Security. All of these programs 
are currently overseen by the OEO, which is to be led by a Deputy Under 
Secretary. However, that position has been left vacant for years and it 
does not appear that the vacancy will be filled any time soon.
    Currently, the OEO programs inside VBA must compete for resources 
and focus with the Compensation, Pension and Insurance programs, of 
which compensation is by far the largest and tends to dominate the 
attention of VBA leadership and personnel. Because of the scale and 
scope of the claims and appeals processing reforms in recent years, it 
has been challenging for VA's economic opportunity (EO) programs to 
compete for adequate funding, specialized resources, and other 
prioritization. For example, while VBA has boosted resources to support 
the modernization and streamlining of the claims and appeals process 
for the past several years, other important programs such as VR&E have 
actually seen a stagnation of resources and oversight. Between 2014 and 
2018, VR&E participation increased by approximately 17 percent while 
the funding rose less than two percent.
    For VR&E to fully reach its potential it needs a leadership 
structure that's success rests solely on the success of the economic 
opportunity programs. The creation of this fourth administration would 
provide greater accountability to Congress when problems such as low 
participation rates and the misallocation of resources come to light. 
In addition, by having an Under Secretary who is held accountable for 
the actions and success of VR&E and other EO programs, greater 
oversight can be accomplished and results improved.
    Mr. Chairman, VA's Vocational Rehabilitation and Employment program 
has shown time and time again that it is a useful resource for service-
disabled veterans who are looking to utilize their given skills and 
talents to improve their quality of life. We look forward to working 
with this Subcommittee to make sure that VR&E continues to ease and 
expand access to this important resource for America's disabled 
veterans. This concludes my testimony on behalf of DAV. I would be 
happy to answer any questions you or other members of the Subcommittee 
may have.

                                 <F-dash>
                   Prepared Statement of Steven Henry
    Chairman Levin, Ranking Member Bilirakis, and distinguished members 
of the House Veterans' Affairs Committee, Subcommittee on Economic 
Opportunity, Paralyzed Veterans of America (PVA) appreciates this 
opportunity to testify before the Subcommittee about the effectiveness 
of the Department of Veterans Affairs' (VA's) Vocational Rehabilitation 
and Employment programs (VR&E).
    Vocational rehabilitation has been an integral part of this 
nation's commitment to veterans with disabilities since Congress first 
established a system of veterans' benefits upon entry of the United 
States into World War I in 1917. VR&E, which is sometimes referred to 
as the Chapter 31 program, provides services to eligible service 
members and veterans with service-connected disabilities to help them 
prepare for, obtain, and maintain suitable employment or achieve 
independence in daily living. Unfortunately, because VR&E is such a 
small program, it receives a lot less attention and much less funding 
than other programs in the Veterans Benefits Administration like 
disability compensation.
    In Fiscal Year (FY) 2017, VR&E had 132,218 veterans who 
participated in a rehabilitation plan, \1\ including those who began a 
plan in that year or previous years. About three-quarters (76 percent) 
of the veterans participating in VR&E have a serious employment 
handicap, which must result in substantial part from a service-
connected disability. These veterans, when participating in the 
program, may receive additional supportive services, which include 
extensions of entitlement and adaptive equipment.
---------------------------------------------------------------------------
    \1\ https://www.benefits.va.gov/VOCREHAB/docs/2017LongStdy.
---------------------------------------------------------------------------
    PVA believes that the effectiveness of VA's VR&E programs could be 
greatly improved through a number of changes that include greater 
outreach to veterans to raise awareness about the benefit; continued 
collaboration with outside agencies and programs; and increased follow 
up time with participants.

Lack of Communication and Outreach to Veterans

    PVA has found that VR&E usage throughout our membership is rather 
low. We do not believe that this is due to a lack of interest, but 
rather a lack of understanding of how the program works. One PVA member 
recently noted that he learned about the program only after he had 
returned to the workforce following his injury. Another was vaguely 
aware of the program but thought he was no longer eligible even though 
he actually retained eligibility. These are common occurrences, and 
it's possible that the program is being overshadowed by the Forever GI 
Bill which is widely advertised through a multitude of venues.
    We often hear how great and beneficial VR&E is; however, there is a 
clear lack of communication and outreach to all disabled veterans. In 
FY 2018, roughly 4.75 million veterans had service-connected 
disabilities, \2\ but less than 3 percent of them utilized VR&E 
services. If you were to ask the average veteran about VA benefits, 
most could explain key elements of the disability compensation program, 
but very few know basic facts about VR&E.
---------------------------------------------------------------------------
    \2\ https://www.va.gov/vetdata/docs/QuickFacts/SCD--quickfacts--
FY2018.PDF.
---------------------------------------------------------------------------
    VA must do a better job explaining the advantages of participating 
in VR&E to veterans with service-connected disabilities. Unfortunately, 
many younger disabled veterans see VR&E as strictly an employment 
program and feel they are better suited for the Forever GI Bill. VA 
should conduct a national outreach effort, perhaps in collaboration 
with veterans service organizations, regarding VR&E services.

Ensure Access to Services

    A veteran's eligibility period for receiving services from VR&E is 
for a 12-year period beginning on either: (1) the date of separation 
from military service, or (2) the date the veteran receives a VA 
disability rating. To receive services, a veteran must need vocational 
rehabilitation to overcome employment barriers due to a service-
connected disability. A veteran's entitlement to participate in VR&E 
services is 48 months.
    For veterans who have incurred a catastrophic disability, the 12-
year delimiting date may not be sufficient to allow them to meet their 
vocational rehabilitation goals. Furthermore, many of these veterans 
have disabilities that may continue to evolve and worsen over time, 
which may cause them to need additional assistance. Veterans with 
service-connected disabilities must have access to the vocational 
rehabilitation services that allow them to continue to work throughout 
their lives.
    Although a VR&E counselor may waive the 12-year limit for veterans 
with serious employment barriers, veterans living with the wounds, 
injuries, and illnesses associated with military service should have 
certainty that if they need assistance in staying in or returning to 
the workforce in the future that this program will be there to assist 
them.
    Limiting eligibility harms veterans, particularly those with 
catastrophic disabilities by failing to foster the conditions necessary 
to allow them to be a part of their communities and contributing 
members to our nation's economy. Ensuring continued access to VR&E 
services could help veterans with disabilities fulfill their full 
potential and we greatly appreciate this Subcommittee's recent approval 
of H.R. 444, the Reduce Unemployment for Veterans of All Ages Act of 
2019, which seeks to lift the arbitrary 12-year time limit.

Continue Collaboration with Public and Private Partners

    As a result of the barriers to employment faced by our members, PVA 
launched its own vocational rehabilitation and employment program in 
2007, Paving Access for Veterans Employment (PAVE). With offices in 
Philadelphia, Atlanta, Long Beach, Richmond, San Antonio, Minneapolis, 
and San Diego PAVE serves all veterans nationwide using a hybrid, 
integrated approach to assist veterans and transitioning service 
members who face significant barriers to employment, as well as their 
spouses and caregivers.
    PAVE offices were originally co-located in VA medical facilities, 
increasing the collaboration between VR&E and PAVE personnel and 
ensuring a stronger safety net for veterans with disabilities. Due to 
space constraints at VA medical facilities, this is no longer the case, 
and only the Richmond and San Antonio PAVE staff work side-by-side with 
VR&E. PVA has seen a decrease in referrals from VR&E since when we had 
to move staff to other locations.
    PAVE provides clients with one-on-one career counseling and 
assistance. The program's services are available to any veterans with 
disabilities, including those whose disabilities are not related to 
their military service. PAVE counselors offer proactive, rapid 
engagement to ensure newly injured or ill veterans quickly learn about 
the services and supports available to help them return to work. 
Importantly, the program is a partner for life to ensure clients' 
continuing success. All services are provided at no charge.
    Continuing to foster new partnerships to ensure that veterans with 
disabilities, particularly those who have catastrophic disabilities, 
can be successful in returning to work is needed to stretch VR&E's 
existing resources. For example, PAVE counselors have noted that they 
can more quickly begin providing vocational assistance because there 
are fewer procedural hurdles to clear for eligibility. Another 
important aspect of these partnerships is the ability of private 
partners to serve veterans who are ineligible for VR&E services, along 
with the caregivers and family members of all veterans who may need 
these services. Thus, these partnerships allow more veterans to receive 
high-quality assistance.
    VA's VR&E program must also continue to foster relationships with 
other government programs that have responsibilities to help veterans 
with disabilities obtain and retain employment. For example, the 
Department of Labor's Veterans' Employment and Training Service (VETS) 
administers programs that play a key role in assisting veterans with 
disabilities in obtaining employment. We are pleased that VR&E now 
reports that 100 percent of VR&E clients are referred to the state 
workforce system and the assistance available through federally-funded 
Disabled Veterans' Outreach Program (DVOP) specialists. We urge 
continued and increased collaboration and an evaluation of the success 
of these referrals for VR&E clients.
    Collaborating with public and private partners is an important way 
to ensure that veterans with disabilities will be able to receive the 
services and supports needed to allow them to build successful 
employment outcomes. VR&E must continue to do community outreach to 
find experienced, credible partners to meet gaps that will result in 
more veterans with disabilities being placed in competitive, integrated 
employment sooner. Sometimes, as was the case when PAVE moved out of VA 
facilities, out of sight can mean out of mind.

Increase Follow Up Time

    VR&E counselors typically follow veterans for 60 days once they are 
placed in a job. After that time, VA will close the veteran's case, and 
the placement will be deemed a success. We are concerned, however, that 
60 days is not enough time to determine whether or not a veteran who 
has a catastrophic disability has successfully adjusted to working as a 
person with a disability.
    Most people find it at least somewhat challenging to settle into a 
new job. For someone who has acquired a disability, there are 
additional challenges that must be met including those related to 
needed accommodations, evolving medical needs and appointments, and 
other disability-related matters that can unfold over a period of time. 
Furthermore, employee probationary periods may be longer than 60 days, 
in some federal positions probationary periods can last up to a year or 
even longer.
    PVA believes that, at the very least, VR&E should study whether or 
not the current tracking standard of 60 days is sufficient follow up 
time. For employees with probationary periods over 60 days, longer 
follow up time may allow for problems that could lead to dismissal to 
be addressed, resulting in the veteran remaining employed. Regardless 
of the length of a probationary period, if any, it makes sense to 
increase the follow-up time to ensure that the veteran has the 
supports, if needed, to ensure a successful transition to the 
workforce. That's why our PAVE counselors conduct ongoing follow up for 
veterans placed through their program.
    Long-term support may be needed to help a veteran with a 
catastrophic disability to not only successfully transition back to the 
workforce but also to remain in the workforce. If a veteran is not 
successful in the workplace, they may suffer setbacks to include a 
belief that work is not possible, even when the problem was lack of 
support. Not all jobs turn out to be the right fit, but no veteran 
should feel that their only option is to leave the workforce when the 
proper supports and assistance would allow him or her to be successful. 
America cannot afford to waste the talent of these veterans who have 
much to offer to our society.

Enhance Independent Living

    Despite best efforts, veterans who have significant disabilities 
may be unable to enter the labor market. In 1980, Congress passed a 
pilot program designed to assist these veterans by providing them with 
needed services and resources to increase their independence and 
ability to participate in their families and communities. Through the 
Independent Living program, VA can guide these veterans in the 
development of goals and provide the information, referrals, and 
continuing case management needed for success in achieving them. A 
number of creative alternatives to employment preparation can be 
recommended, purchased, or approved by a veteran's counselor to enhance 
a veteran's quality of life.
    VA's Independent Living (IL) program was initially limited to 500 
veterans. Over time, the program proved to be a critical option for 
improving the rehabilitation experiences of catastrophically disabled 
veterans. Congress raised that number a couple of times, and currently, 
2,700 veterans are permitted to begin the IL program each year. This 
limit can be waived to accommodate veterans who have been adversely 
affected by a natural or other disasters, as determined by the VA. \3\
---------------------------------------------------------------------------
    \3\ See 38 U.S.C. 3120(e)(2). This change was made by Section 
701(c) of P.L. 112-154, Honoring America's Veterans and Caring for Camp 
Lejeune Families Act of 2012.
---------------------------------------------------------------------------
    PVA believes the cap should be raised so VA can accept any veteran 
who could benefit from the program. Also, VR&E counselors must be well-
versed in the Independent Living program to ensure that those who are 
eligible and who would benefit most from participation are given the 
opportunity to do so. Once a veteran is in the program, counselors must 
also closely track referrals for VA service and benefits to ensure that 
those referrals are addressed. Otherwise, the program will fail the 
veterans it serves, and their independence will be compromised.
    In sum, without the proper services and supports, veterans with 
catastrophic disabilities are in danger of falling out of the workforce 
permanently. Such a loss means decreased financial security and social 
opportunities. VA's VR&E program provides critical access to needed 
services and supports for veterans with service-connected disabilities. 
An investment in VR&E is an investment in helping veterans with 
disabilities return to work and ensuring their long-term rehabilitation 
and success.
    PVA thanks the Subcommittee for the opportunity to express our 
views and we welcome any follow-up questions you may have.

                                 <F-dash>
                    Prepared Statement of Tanya Ang
    Chairman Levin, Ranking Member Bilirakis, and Members of the 
Committee,

    Thank you for the opportunity to provide feedback on the Department 
of Veterans Affairs' (VA) Vocational Rehabilitation and Employment 
(VR&E) program. Veterans Education Success works to advance higher 
education success for veterans, service members, and military families, 
and to protect the integrity and promise of the GI Bill and other 
federal education programs. We strongly believe holistic support and 
access to high-quality post-secondary education and training for 
workforce development provides opportunities for those who have served 
our country to successfully transition from military service into the 
civilian workforce and continue to be strong contributors to our 
nation's economic wellbeing. We believe that VR&E is one of VA's most 
effective program to accomplish such.
    VR&E is designed to provide support for veterans and servicemembers 
with service connected disabilities the opportunity to receive the 
necessary support to ``prepare for, obtain, and maintain suitable 
employment.'' \1\ The benefits provided by this program are 
significant; yet, despite its important role, it often flies under the 
radar by policymakers. It is appropriate and necessary for the 
Committee to continue to give VR&E the attention it deserves.
---------------------------------------------------------------------------
    \1\ U.S. Department of Veterans Affairs. Vocational Rehabilitation 
and Employment (VR&E) Longitudinal Study (PL 110-389 Sec. 334): Annual 
Report 2018 for FY 2017. https://www.benefits.va.gov/VOCREHAB/docs/
2017LongStdy.pdf
---------------------------------------------------------------------------
    Over the last ten years as I have worked with military-affiliated 
students, and the institutions of higher learning that support them, 
I've heard consistent feedback about the program and veterans' concerns 
in three areas I would like to bring to the Committee's attention: (1) 
Technology, (2) Staffing, and (3) Inconsistency of counseling and 
direction provided by Vocational Rehabilitation Counselors.
    These 3 areas of concern also arose during the May 2018 
Congressional hearing about the program. Witnesses testimony included 
the insufficient client-to-counselor ratio, the proposed cut of 
approximately $59 million dollars to the program for the FY 2019 VA 
Budget, and the lack of training and consistency for counselors.
    Since that time, we want to acknowledge that VA has been proactive 
in addressing a number of these concerns, including increasing the 
amount of funding requested in the FY 2020 budget proposal. Most of 
that requested increase is aimed at hiring 70 more counselors to meet 
the statutory mandate of no more than 125 clients per counselor and for 
the continued roll out of a modernized case management system that 
automates invoice payment processing in the early part of FY 2020. They 
have also employed a tele-counseling pilot program and other technology 
to create ease of access. \2\ VES supports VA's requested funding for 
FY 2020 and urges Congress to approve it.
---------------------------------------------------------------------------
    \2\ U.S. Department of Veterans Affairs. FY 2020 President's Budget 
Request. March 11, 2019. https://www.va.gov/budget/docs/summary/
fy2020VAbudgetvolumeIIIbenefitsBurialProgramsAndDeptmentalAdministration
.pdf
---------------------------------------------------------------------------
    While we are hopeful for what appears to be a positive path forward 
for the program, we believe there are still areas that deserve 
attention and need to be addressed.

The Need for a Modernized Case Management System

    The last time the case management system for VR&E was updated was 
over two decades ago, in 1997. Complaints from both students and school 
administrators have revolved around the challenges School Certifying 
Officials (SCOs) have faced with, what one school administrator 
referred to as, the black hole of certification. This is not surprising 
as it is still a paper-based file system.
    Students have gone up to six months without receiving payments, 
causing undue financial hardship. When SCOs contact VA Regional Offices 
for updates, they are left with little information and much frustration 
as they work to find ways to provide answers and support for their 
student veterans struggling to stay in school.
    In 2015, the VR&E office was authorized to work with the VA Office 
of Information & Technology (VA OI&T) to modernize their case 
management system. In spring of 2018, after approximately $12 million 
was spent on trying to update the system, the program was scrapped. \3\ 
Since then, VA has been working to effectively update the system and, 
according to VA officials, plans to roll it out this fall.
---------------------------------------------------------------------------
    \3\ House Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity Hearing, ``A Review of VA's Vocational Rehabilitation and 
Employment Program'' https://www.youtube.com/
watch?v=sxQ8Wuktal4&feature=youtu.be
---------------------------------------------------------------------------
    Given the recent challenges VA OI&T has experienced with its last 
attempt to modernize this system and the rollout of sections 107 and 
501 of the Harry W. Colmery Act, we urge careful Congressional 
oversight. We remain cautiously optimistic about previewing this system 
in the coming months.

Insufficient and Inadequate Veteran Resource Counselors

    Veteran Resource Counselors are crucial to the success or failure 
of the program, yet many barriers currently exist to prohibit them from 
achieving the level of success they could. With the modernization of 
the case management system, we believe some of these barriers should, 
in theory, be removed since it will automate some of the administrative 
burden. That said, we still remain concerned about the following 
issues:
    Client-to-Counselor Ratio - We applaud VBA's concerted effort to 
reduce the number of clients per counselor but question the current 
legislative mandate of 125 clients to one counselor. The program is 
set-up to offer individualized plans specific to the needs and 
challenges of each client. This type of support is necessary to help 
the veteran successfully accomplish his or her goals, yet the time it 
takes to provide such support and follow-up can be labor intensive. \4\ 
We believe it would be beneficial to further explore if the current 
client to counselor ratio is effective. We encourage the Committee to 
consider decreasing the Congressionally mandated ratio to something 
more along the lines of 85 clients for each counselor.
---------------------------------------------------------------------------
    \4\ The American Council on Education. ACE;s 2015 Servicemember and 
Veteran Academic Advising Summit Report. 2015. https://www.acenet.edu/
news-room/Documents/2015-Veterans-Programs-Summit-Report.pdf
---------------------------------------------------------------------------
    Challenges with Conflicts of Interest - We are also concerned about 
the recent news of James King, a VR&E Counselor who pleaded guilty in 
October 2018 to bribery, fraud and obstruction for demanding and 
receiving bribes from three for-profit schools in exchange for 
directing disabled veterans to those schools, in a kickback scheme. \5\ 
In addition to lying about the types of training his clients were 
receiving, Mr. King threatened one veteran that his benefits would 
lapse if he did not attend one of the three schools Mr. King was 
conspiring with. Additionally, he forced a student to pursue training 
in a vocational program he was not physically able to perform due to 
his service-connected disability. This individual had communicated his 
desire to pursue training to become a baker, yet that path was not 
financially beneficial for Mr. King.
---------------------------------------------------------------------------
    \5\ The U.S. Department of Justice. Department of Veterans Affairs 
Official Pleads Guilty to Bribery, Fraud, and Obstruction in $2 Million 
Scheme Involving Program for Disabled Military Veterans. October 26, 
2018. https://www.justice.gov/opa/pr/department-veterans-affairs-
official-pleads-guilty-bribery-fraud-and-obstruction-2-million
---------------------------------------------------------------------------
    While this example is clearly egregious in nature, it highlights 
the importance of ensuring counselors are not in positions where there 
is a clear conflict of interest. We would encourage Congress to ensure 
stronger conflict of interest provisions and oversight.
    Concerns about the Power of Counselors and Inadequate Requirements 
of Quality - The story of Mr. King also highlights the amount of power 
and influence counselors have in approving or disapproving a veteran's 
educational path. In the past three years, I have worked with at least 
three students who were admitted into top tier universities. They were 
also accepted into low-quality schools that did not produce the same 
outcomes, but because that institution accepted one credit of PE from 
the student's Joint Services Transcript, the counselor forced the 
individual to choose the lower quality school because it would be more 
cost effective.
    While the VR&E program is focused primarily on vocational training 
and is not an education benefit, the student was going to receive 
higher quality training that would lead to more opportunities within 
the career field they were pursuing. It took months of petitioning to 
get each of those students into the higher quality programs. These are 
not isolated cases. Many examples exist of disabled students steered 
away from Ivy League and top-notch colleges - which would significantly 
enhance their career trajectory - and instead towards low-quality 
schools that are much less respected on the job market.
    Not all counselors will railroad students in this manner, but they 
all possess the power to do so if they choose. This highlights the need 
for ensuring consistency in guidelines and expectations for counselors, 
in particular requiring counselors to consider the quality and future 
earnings trajectory of a college, as there are wide differences among 
colleges. We would encourage the Committee to require quality 
considerations in VR&E college selections, using, for example, GI Bill 
Comparison Tool metrics. We also believe students should have a more 
prominent voice in the selection of the institution or program they 
choose to pursue.
    Veterans have also complained about inconsistency in what they are 
allowed, or not allowed, to pursue related to education. One student 
might only be allowed to pursue a two-year degree while their peer is 
approved to pursue a doctorate degree. While this program is indeed a 
rehabilitation program to allow veterans the opportunity to get 
necessary training for their specified career path, veterans should 
have the opportunity to use their full 48 months to pursue training 
that will allow them to increase their ability to be a substantive 
contributor to the American economy.
    Proper Training and Consistent Expectations - Additionally, 
counselors should continue to receive ongoing training. In his May 2018 
testimony, former Director Jack Kammerer referred to a Competency Based 
Training System the Department was planning to roll out during the 2019 
fiscal year. \6\ The concept sounds promising, but we would encourage 
VA to ensure the trainings incorporate comprehensive information for 
all five tracks in the VR&E program and require annual training to stay 
abreast of current issues.
---------------------------------------------------------------------------
    \6\ Statement of Jack Kammerer, Director, Vocational Rehabilitation 
and Employment, Veterans Benefits Administration, Department of 
Veterans Affairs Before the House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity. May, 18, 2018. https://
docs.house.gov/meetings/VR/VR10/20180517/108251/HHRG-115-VR10-Wstate-
KammererJ-20180517.pdf
---------------------------------------------------------------------------
    Jack of All Trades, Master of None - In a Government Accountability 
Office report, veterans cited challenges with their counselor's 
inability to help them translate their military service into federal 
civilian employment and frustration that a counselor did not adequately 
describe the physical challenges of the job given the veteran's 
physical disabilities. \7\ Veterans using the VR&E program are 
supported by their Counselors to develop individualized plans following 
one of five tracks: Reemployment, Rapid access to employment, Self-
employment, Employment through long-term services, and Independent 
Living. The counselor is expected to be a subject matter expert on each 
of these tracks. That is an impossible standard to meet.
---------------------------------------------------------------------------
    \7\ U.S. Government Accountability Office. Report to Congressional 
Committees, ``VA Vocational Rehabilitation and Employment: Further 
Performance and Workload Management improvements Are Needed.'' 2014. 
https://www.gao.gov/assets/670/660160.pdf
---------------------------------------------------------------------------
    By analogy, if a veteran visits a VA Health clinic for a specific 
health issue, they visit a specialist. An orthopedic surgeon is not 
going to be able to effectively help a patient who is having 
respiratory issues. Why not apply the same standard to veterans who 
need vocational rehabilitation?
    In some of the regional VR&E offices, counselors are assigned 
subject matter experts for one area. In other offices, there is concern 
about maintaining continuity of counselors and the impact it can have 
on persistence and successful completion of a program. \8\ While there 
is no clear-cut answer on how to address this issue since what works in 
some offices may not work in others, we agree with the GAO report 
recommendations on conducting field research to identify and publish 
promising practices for client support for each of the field offices. 
VA also agreed with this recommendation. We believe it would be helpful 
for this Committee to learn if this was completed and what the outcomes 
were. Subject matter expertise is worth the Committee's consideration.
---------------------------------------------------------------------------
    \8\ Ibid
---------------------------------------------------------------------------
Additional Recommendations

    As Congressman Arrington mentioned in his opening statements for 
the May 2018 hearing, VR&E should be the ``crown jewel'' of programs, 
yet it unfortunately falls short in ways the Post-9/11 GI Bill does 
not. \9\ When the Forever GI Bill was passed in 2017, Congress removed 
the 15-year delimiting date and included restoration of entitlement to 
students whose schools closed. We agree with our colleagues at Veterans 
of Foreign War, Paralyzed Veterans of America, and Disabled American 
Veterans who have called for the removal of the 12-year delimiting 
date. \10\ Those using VR&E should also have the same restoration of 
entitlement their peers receiving the Post-9/11 GI Bill enjoy. They 
pursue programs of study based on the guidance and direction of their 
counselors and only have one chance to do so. It is unacceptable that 
severely injured veterans do not get their benefits reinstated when a 
school closes, leaving them with wasted benefits, nothing to show for 
it, and no ability to fulfill the mission of the program - vocational 
rehabilitation.
---------------------------------------------------------------------------
    \9\ House Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity Hearing, ``A Review of VA's Vocational Rehabilitation and 
Employment Program'' https://www.youtube.com/
watch?v=sxQ8Wuktal4&feature=youtu.be
    \10\ The Independent Budget Veterans Agenda for the 116th Congress: 
Policy Recommendations for Congress and the Administration. ``Enhance 
Vocational Rehabilitation and Employment Services.'' http://
www.independentbudget.org/pdf/TIB-EAE3-Enhance-Vocational-
Rehabilitation-and-Employment-Services.pdf
---------------------------------------------------------------------------
    Create Rate Parity - Currently this program has two different 
subsistence rates. One is at the rate of the Post-9/11 GI Bill benefit 
and one is at the rate of the Montgomery GI Bill benefit. Veterans in 
the same program of study could have vastly different benefits. This is 
confusing since, unlike the Post-9/11 GI Bill and the Montgomery GI 
Bill, VR&E is one benefit program. It also creates a larger 
administrative burden and challenges for VA as they navigate what 
subsistence rate the veteran is eligible for. This can be challenging 
for a veteran and discourages them from taking advantage of a program 
that could have positive lifelong impacts. Moving the subsistence rate 
to one rate reduces bureaucracy, eliminates confusion, and creates 
better parity for service members and veterans with service-connected 
disabilities.
    Transparency - Finally, VR&E does not have the same transparency as 
the Post-9/11 GI Bill. No information is available on the Comparison 
Tool related to where veterans pursue post-secondary education using 
VR&E. Additionally, it is challenging to find current and pertinent 
information other than in annual reports. Having access to this 
information would be helpful for outside organizations who are also 
supporting those using this program, as well as for disabled veterans 
seeking information on the college outcomes of their peers.
    I appreciate the Committee's continued commitment to this program 
and look forward to answering any further questions you might have.

                                 <all>
</pre></body></html>
